1a
APPENDIX A
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1518
THOMAS H. KRAKAUER, on behalf of a class of
persons,
Plaintiff – Appellee,
v.
DISH NETWORK, L.L.C.,
Defendant – Appellant.
DRI-THE VOICE OF THE DEFENSE BAR;
PRODUCT
LIABILITY
ADVISORY
COUNCIL, INCORPORATED,
Amici Supporting Appellants.
Appeal from the United States District Court
for the Middle District of North Carolina, at
Greensboro. Catherine C. Eagles, District
Judge. (1:14-cv-00333-CCE-JEP)

2a
Argued: May 9, 2019

Decided: May 30, 2019

Before WILKINSON and KING, Circuit Judges, and
Irene C. BERGER, United States District Judge for
the Southern District of West Virginia, sitting by
designation.
Affirmed by published opinion. Judge Wilkinson
wrote the opinion, in which Judge King and Judge
Berger joined.

3a
ARGUED: E. Joshua Rosenkranz, ORRICK,
HERRINGTON & SUTCLIFFE, LLP, New York, New
York, for Appellant. John William Barrett, BAILEY
& GLASSER LLP, Charleston, West Virginia, for
Appellee. ON BRIEF: Peter A. Bicks, Elyse D.
Echtman, John L. Ewald, Christopher J. Cariello,
New York, New York, Eric A. Shumsky, Kelsi Brown
Corkran, Jeremy R. Peterman, Washington, D.C.,
Paul David Meyer, ORRICK, HERRINGTON &
SUTCLIFFE LLP, San Francisco, California, for
Appellant. Brian A. Glasser, BAILEY & GLASSER
LLP, Charleston, West Virginia; Deepak Gupta,
Jonathan E. Taylor, GUPTA WESSLER PLLC,
Washington, D.C., for Appellee. Richard D. Kelley,
BEAN KINNEY & KORMAN, Arlington, Virginia;
Deirdre A. Fox, Stephanie Scharf, SCHARF BANKS
MARMOR LLC, Chicago, Illinois, for Amicus Product
Liability Advisory Council. David M. Axelrad, Felix
Shafir, HORVITZ & LEVY LLP, Burbank, California;
John F. Kuppens, President, DRI–THE VOICE OF
THE DEFENSE BAR, Chicago, Illinois, for Amicus
DRI–The Voice of the Defense Bar.

4a
WILKINSON, Circuit Judge:
Congress enacted the Telephone Consumer
Protection Act (TCPA) to prevent abusive telephone
marketing practices. As part of this effort, the TCPA
prohibits calls to numbers on the national Do-NotCall registry. Dr. Thomas Krakauer brought suit
against Dish Network, alleging that its sales
representative, Satellite Systems Network (SSN),
routinely flouted this prohibition. He sought to
pursue his claim on behalf of all persons who, like
him, had received calls on numbers listed in the DoNot-Call registry. The district court certified the class
and the case went to trial, where Dish ultimately lost.
Dish now appeals, raising several objections to the
proceeding below. Because we hold that the district
court properly applied the law and prudently
exercised its discretion, we affirm.
I.
A.
Telemarketing is big business, especially for
television providers. Calls made on behalf of cable and
satellite television companies have become
ubiquitous. Many Americans are now accustomed to
the standard sales pitch, asking them to make an
upgrade or take advantage of a limited time offer.
These calls are obviously effective, as consumers
spend billions of dollars each year on television
services marketed over the phone.
Telemarketing calls are also intrusive. A great
many people object to these calls, which interfere with

5a
their lives, tie up their phone lines, and cause
confusion and disruption on phone records. Faced
with growing public criticism of abusive telephone
marketing practices, Congress enacted the Telephone
Consumer Protection Act of 1991. Pub. L. No. 102243, 105 Stat. 2394 (1991) (codified at 47 U.S.C. § 227
(2012)). As Congress explained, the law was a
response to Americans “outraged over the
proliferation of intrusive, nuisance calls to their
homes from telemarketers,” id. § 2(6), and sought to
strike a balance between “[i]ndividuals’ privacy
rights, public safety interests, and commercial
freedoms,” id. § 2(9). To meet these ends, the TCPA
first imposed a number of restrictions on the use of
automated telephone equipment, such as “robocalls.”
47 U.S.C. § 227(b); see Mims v. Arrow Fin. Servs.,
LLC, 565 U.S. 368, 373 (2012). For in-person
telemarketing calls, on the other hand, the law opted
for a consumer-driven process that would allow
objecting individuals to prevent unwanted calls to
their homes.
The result of the telemarketing regulations was
the national Do-Not-Call registry. See 47 C.F.R.
§ 64.1200(c)(2). Within the federal government’s web
of indecipherable acronyms and byzantine programs,
the Do-Not-Call registry stands out as a model of
clarity. It means what it says. If a person wishes to no
longer receive telephone solicitations, he can add his
number to the list. The TCPA then restricts the
telephone solicitations that can be made to that
number. See id.; 16 C.F.R. § 310.4(b)(iii)(B) (“It is an
abusive telemarketing act or practice and a violation
of this Rule for a telemarketer to … initiat[e] any
outbound telephone call to a person when … [t]hat

6a
person’s telephone number is on the “do-not-call”
registry, maintained by the Commission.”). There are
limited exceptions. For instance, a call does not count
as a “telephone solicitation” if the caller and the
recipient have an established business relationship,
see 16 C.F.R. § 310.2(q), or if the recipient invited the
call, see 47 U.S.C. § 227(a)(4). Barring an exception,
however, telemarketers are expected to check the list
and avoid bothering those who have asked to be left
alone. In addition to the national registry, companies
are also expected to keep individual Do-Not-Call lists,
reflecting persons who have directly told the company
that they do not wish to receive further solicitations.
See 47 C.F.R. § 64.1200(d).
The TCPA can be enforced by federal agencies,
state attorneys general, and private citizens. Mims,
565 U.S. at 370. Relevant to this appeal, the law
allows a private right of action for violations of the DoNot-Call registry regulations. Specifically, claims can
be brought by “[a] person who has received more than
one telephone call within any 12-month period by or
on behalf of the same entity in violation of the
regulations prescribed under this subsection ….” 47
U.S.C. § 227(c)(5). These private suits can seek either
monetary or injunctive relief. Id. If damages are
sought, the plaintiff is entitled to receive the greater
of either his actual loss or statutory damages up to
$500. Id. If the defendant’s violation of the law was
willful and knowing, those damages can be trebled,
within the district court’s discretion. Id. “[T]he court
may, in its discretion, increase the amount of the
award to an amount equal to not more than 3 times
the amount available under subparagraph (B) of this
paragraph.”)

7a
This private cause of action is a straightforward
provision designed to achieve a straightforward
result. Congress enacted the law to protect against
invasions of privacy that were harming people. The
law empowers each person to protect his own personal
rights. Violations of the law are clear, as is the
remedy. Put simply, the TCPA affords relief to those
persons who, despite efforts to avoid it, have suffered
an intrusion upon their domestic peace.
B.
Dr. Thomas Krakauer is just such a person. In
May of 2009, he started getting telemarketing calls,
asking him to buy services from Dish Network. These
calls were placed by a firm called Satellite Systems
Network (SSN), whose entire business model was to
make calls like these on behalf of television service
providers. During the time that SSN was calling
Krakauer, the company only marketed Dish. J.A. 172.
Krakauer called Dish to complain about the calls, and
he was placed on the company’s individual Do-NotCall list. Fortunately for Krakauer, he had registered
his phone number on the national Do-Not-Call
registry in 2003. SSN’s calls to him were therefore not
only annoying, they were illegal. In 2015, Krakauer
sued Dish Network for the improper calls under the
TCPA, seeking redress for the calls made on its behalf
by SSN.
In the years since, this litigation has wound its
way through an array of pre-trial motions, a full jury
trial, and a detailed post-trial claims process. In
September of 2015, the court certified a class that
closely followed the text of the TCPA, allowing

8a
Krakauer to bring his claim on behalf all persons (1)
whose numbers were on the national Do-Not-Call
registry or the individual Do-Not-Call lists of either
Dish or SSN for at least 30 days and (2) received two
calls in a single year. J.A. 202-03. The court concluded
that this definition satisfied the requirements for
class certification. A few of the court’s findings on this
point are particularly relevant for this appeal. First,
the court held that the class-wide issues raised by the
plaintiffs were susceptible to common proof. Id. at
191, 195-96. As the court saw it, “[t]he essential
elements of the class members’ claim can be proven at
trial with common, as opposed to individualized,
evidence.” J.A. 200. Looking to our court’s precedents,
the district court also concluded that the members of
Krakauer’s proposed class could be easily identified.
Id. at 178 (citing EQT Prod. Co. v. Adair, 764 F.3d
347, 358 (4th Cir. 2014)).
Nearly a year after the initial certification, Dish
moved to dismiss the entire case on the grounds that
the class lacked Article III standing. The court
rejected this argument, holding that “Dr. Krakauer’s
allegations show a concrete injury to him and to each
class member,” J.A. 246, and allowed the case to move
forward. Prior to trial, the court granted a motion to
further narrow the class in response to new class-wide
data provided by the parties. Id. at 279-80. When the
trial arrived, the court instructed the jury to resolve
three factual disputes. First, the jury had to
determine whether SSN was acting as Dish’s agent at
the time that it made the improper calls. Second, it
had to determine whether SSN made, and the class
members received, multiple calls to numbers on the
national Do-Not-Call registry within a given period.

9a
Third, if it found that such calls were in fact made,
the jury was also asked to assign a damages award for
each improper call. Id. at 510-28.
Ultimately, the jury returned a verdict in favor of
Krakauer and the class plaintiffs. After finding that
the telemarketing practices violated the TCPA and
that Dish was liable for the calls placed by SSN, the
jury awarded damages of $400 per call. Id. at 508.
Once the trial was complete, the district court
examined whether Dish’s violations were willful and
knowing, as provided for in the statute. The court
found that they were, and trebled the damages award.
Id. at 549-50. Dish responded with a motion for a new
trial and renewed motion for judgment as a matter of
law, raising many of the arguments that had been
rejected at the class certification stage and in its
earlier motions. All of these arguments were rejected,
and the court began to process the class members’
claims.
In developing a process to ensure that the money
went to the right people, the parties presented wildly
divergent proposals to the court. Dish asked the court
to require a claims form for every single class
member, even those for whom the class-wide evidence
clearly established a valid claim. The plaintiffs on the
other hand, asked for judgment to be entered
immediately and for checks to be mailed to class
members who had already responded to the class
solicitation, without the need for adversarial process.
J.A. 615-16.
The court opted for a middle position, declining to
enter an immediate judgment and instead allowing

10a
Dish to participate in the process and contest some
individual claims. Id. at 626. Under this process, the
court would appoint an administrator to oversee the
distribution and completion of individual claims
forms. The court left open the possibility that the
plaintiffs could point to “class members who are
identified fully and without contradiction in the data,”
for whom judgment without a claims form would be
appropriate. Id. at 628. Applying this method, the
district court granted judgment for approximately
11,000 plaintiffs without a claims form, finding that
their entitlement to damages was clear. J.A. 671.
Many months later, and more than a year after
the jury trial had concluded, the district court entered
a final judgment in the case. 1 In entering the order,
1 We have jurisdiction over this appeal under 28 U.S.C. § 1291,
which affords this court jurisdiction to review “final decisions of
the district courts of the United States.” The final judgment of
April 5, 2018 fully describes the 18,066 class members, reflects
the jury’s verdict as to both liability and damages, and includes
an aggregate damages award of $61,243,800. J.A. 687. All that
remains at the district court are “questions as to distribution of
the damages award [that] can be resolved expeditiously and
easily via a claims process.” Id. at 686.

In such a situation, where the remaining issues are
“ministerial” and unlikely to alter the issues on appeal,
“immediate appeal is allowed.” Parks v. Pavkovic, 753 F.2d 1397,
1401 (7th Cir. 1985). See also Barfield v. Sho-Me Power Elec.
Coop., 309 F.R.D. 491 (W.D. Mo. 2015) vacated on other grounds,
852 F.3d 795 (8th Cir. 2017). The Supreme Court has exercised
jurisdiction in an identical posture, where judgment was entered
after trial, but before all of the funds were disbursed to class
plaintiffs. See Tyson Foods, Inc. v. Bouaphakeo, 136 S. Ct. 1036,
1050 (2016).

11a
the district court noted that Dish had not participated
in the claims process in good faith, instead choosing
to “bombard the court with irrelevant and voluminous
materials,” “repeat arguments the court has rejected
many times,” and “seek a second bite at the apple
when it loses on grounds it could have raised the first
time the apple was presented.” J.A. 685. Given the
futility of continuing a process that was only initiated
to give Dish a seat at the table, the court “conclude[d]
that the time ha[d] come to enter judgment in favor of
the class.” Id. The judgment totaled more than
$61,000,000. Id. at 685-86.
It is at this point, prior to the complete
disbursement of the funds, that this case arrives on
appeal. Through each stage of the proceedings below,
the record reflects substantial diligence and care by
the district court in managing the class. When new
evidence became available, the court modified the
class appropriately. When Dish raised new
arguments or rehashed old ones, the court thoroughly
responded, carefully parsing the legal authorities that
were presented. When the parties offered competing
positions on how to handle the claims process, the
court opted for the path that afforded Dish a chance
to participate, and carefully scrutinized the plaintiffs’
motions to ensure that purported class members did
not recover without sufficient support for their claims.
Dish’s contentions on appeal come in three
varieties. First, it challenges the class certification on
the grounds that the court lacks jurisdiction over the
class under Article III. Second, it raises various
objections to the district court’s certification of the
class as a matter of civil procedure. And third, it

12a
challenges its own liability for the improper calls
placed by SSN.
II.
As is customary, we first take up Dish’s
jurisdictional argument. As Dish sees the matter,
Article III bars the court from certifying a class if the
class is defined such that many members of the class
will lack standing. The question of how to handle
classes that may include uninjured class members
has received considerable attention among our sister
circuits in recent years. See In re Asacol Antitrust
Litig., 907 F.3d 42, 56-57 (1st Cir. 2018) (collecting
cases). As these thoughtful opinions demonstrate,
this question can be seen as implicating either the
jurisdiction of the court under Article III or the
procedural issues embedded within Rule 23’s
requirements for class certification. At times, the
discussion of these two issues has run together. We
are of the view, however, that to the extent Article III
imposes distinct constraints on the composition of the
class, that issue ought to be taken up separately. See
Ortiz v. Fibreboard Corp., 527 U.S. 815, 830-831
(1999).
Turning to the standing question alone, the class
certified by the district court is entirely consonant
with Article III’s requirements. The class definition
hewed tightly to the language of the TCPA’s cause of
action, and that statute itself recognizes a cognizable
constitutional injury. There is therefore no untold
number of class members who lack standing here, and
we need not expound on what it would mean if there
were.

13a
To fall within the class certified below, a person
had to receive two calls within one year to a number
that was listed on the Do-Not-Call registry, just as the
TCPA provides. J.A. 80. The question for us is
whether this class definition, by its terms, stated an
injury that is sufficient to support federal jurisdiction.
The Supreme Court’s recent decision in Spokeo, Inc.
v. Robins, 136 S. Ct. 1540 (2016), provides the answer.
Spokeo lays down a few clear propositions. First, the
traditional requirements of standing—injury-in-fact,
redressability, and traceability—apply to causes of
action created by statute. Congress’s determination
that a cause of action exists does not displace this
“irreducible constitutional minimum” of standing. Id.
at 1547-48 (“Congress cannot erase Article III’s
standing requirements by statutorily granting the
right to sue to a plaintiff who would not otherwise
have standing.” (quoting Raines v. Byrd, 521 U.S. 811,
820 n.3 (1997)). Second, for an injury-in-fact to be
cognizable under the Constitution, it must be both
concrete and particularized. Id. at 1548-49. And third,
in determining whether a given injury meets the
constitutional threshold, we look to both historic
practice and the judgment of Congress. Id.
Taken together, this guidance helps to preserve
the traditional core of standing, which is a personal
stake in the case. Private litigation, even if authorized
by statute to serve a range of public ends, must
vindicate the plaintiffs’ interests, rather than serve
solely a vehicle for ensuring legal compliance. See
Valley Forge Christian Coll. v. Ams. United for
Separation of Church & State, Inc., 454 U.S. 464, 473
(1982) (“Were the federal courts merely publicly
funded forums for the ventilation of public grievances

14a
or the refinement of jurisprudential understanding,
the concept of ‘standing’ would be quite
unnecessary.”). This is just as true of class actions as
it is for any other “case” or “controversy” in federal
court. See Warth v. Seldin, 422 U.S. 490, 498-99
(1975); Sosna v. Iowa, 419 U.S. 393 (1975).
Looking both to Congress’s judgment and
historical practice, as Spokeo instructs, the private
right of action here plainly satisfies the demands of
Article III. In enacting § 227(c)(5) of the TCPA,
Congress responded to the harms of actual people by
creating a cause of action that protects their
particular and concrete privacy interests. To bring
suit, the plaintiffs here must have received unwanted
calls on multiple occasions. These calls must have
been to a residential number listed on the Do-Not-Call
registry. This is not a statute authorizing citizen-suits
for any legal violation to which a plaintiff might take
issue. See Lujan v. Defs. of Wildlife, 504 U.S. 555, 57172 (1992) (citing 16 U.S.C. § 1540(g)). The statute
requires that an individual receive a call on his own
residential number, a call that he previously took
steps to avoid. There is nothing ethereal or abstract
about it.
Our legal traditions, moreover, have long
protected privacy interests in the home. Intrusions
upon personal privacy were recognized in tort law and
redressable through private litigation. See generally
Restatement (Second) of Torts, § 652B (defining
“[i]ntrusion upon seclusion” as “intentional[]
intru[sion], physically or otherwise, upon the solitude
or seclusion of another or his private affairs or
concerns”). Cognizable intrusions include intrusions

15a
made via phone calls. Id. The straightforward
application of Spokeo thus neatly resolves this
matter, as many other courts have held in similar
settings. See Susinno v. Work Out World Inc., 862
F.3d 346, 351-52 (3d Cir. 2017); Van Patten v. Vertical
Fitness Grp., LLC, 847 F.3d 1037, 1043 (9th Cir.
2017); Booth v. Appstack, Inc., 2016 WL 3030256, at
*5-6 (W.D. Wash. May 25, 2016) (holding that under
Spokeo violations of the TCPA’s robocalling provision
are “sufficiently concrete to confer standing”); Mey v.
Got Warranty, Inc., 193 F. Supp. 3d 641 (N.D. W. Va.
2016) (“[U]nwanted phone calls cause concrete
harm.”).
The arguments to the contrary, made by both the
appellant and its amici, deploy Spokeo in ways that
go well beyond its holding and rationale. Rather than
paying heed to Congress’s judgment of what sort of
particular and concrete harms ought to count, the
appellants ask that we import the elements of
common law torts, piece by piece, into any scheme
Congress may devise. As they see it, Article III’s
injury-in-fact requirement is not met until the
plaintiff’s alleged harm has risen to a level that would
support a common law cause of action. This sort of
judicial grafting is not what Spokeo had in mind. See
Susinno, 862 F.3d at 352. Our inquiry is focused on
types of harms protected at common law, not the
precise point at which those harms become
actionable. Congress is empowered to “elevate to the
status of legally cognizable injuries concrete, de facto
injuries that were previously inadequate in law,”
Spokeo, 136 S. Ct. at 1549 (citing Lujan, 504 U.S. at
578), and that is precisely what it did here.

16a
The plaintiffs here do not seek redress for a
procedural shortcoming, such as the defendant’s
failure to keep accurate Do-Not-Call records. Their
claim under § 227(c)(5) accrues only once a
telemarketer disregards the registry and actually
places multiple calls. Since that harm is both
particular to each person and imposes a concrete
burden on his privacy, it is sufficient to confer
standing. The appellant’s suggestion otherwise is
nothing more than an attempt to dismember the
TCPA, converting a simple remedial scheme into a
fact-intensive quarrel over how long a party was on
the line or how irritated it felt when the phone rang.
Obviously, Congress could have created such a
cumbersome scheme if it wanted to. It instead opted
for a more straightforward and manageable way of
protecting personal privacy, and the Constitution in
no way bars it from doing so.
III.
We now take up the various challenges to the
plaintiffs’ class under Rule 23. See Fed. R. Civ. P. 23.
At the time of the trial, the class was defined to
include:
[1] All persons throughout the United States
whose telephone numbers were listed on the
federal Do Not Call registry for at least 30 days,
but [2] who received telemarketing calls from
SSN to promote the sale of Dish satellite
television subscriptions [3] from May 1, 2010 to
August 1, 2011.

17a
J.A. 80. 2 Our review of class certification issues is
deferential, cognizant of both the considerable
advantages that our district court colleagues possess
in managing complex litigation and the need to afford
them some latitude in bringing that expertise to bear.
See Doe v. Chao, 306 F.3d 170, 183 (4th Cir. 2002). In
seeking class certification under Rule 23, the plaintiff
has the burden of demonstrating that the
requirements for class-wide adjudication have been
met. See Comcast Corp. v. Behrend, 569 U.S. 27, 33
(2013). Since the requirements of Rule 23 are often
“enmeshed in the factual and legal issues comprising
the plaintiffs’ cause of action,” Wal-Mart Stores, Inc.
v. Dukes, 564 U.S. 338, 351 (2011) (quoting Gen. Tel.
Co. of Sw. v. Falcon, 457 U.S. 147, 160 (1982)), the
district court must rigorously examine the core issues
of the case at the certification stage.
Rule 23 begins with a list of threshold
requirements applicable to all class actions,
commonly
referred
to
as
“numerosity,”
“commonality,” “typicality,” and “adequacy.” See Fed.
R. Civ. P. 23(a). These “four requirements …
‘effectively limit the class claims to those fairly
encompassed by the named plaintiff’s claims.’” WalMart Stores, 564 U.S. at 349 (quoting Gen. Tel. Co. of
Sw., 457 U.S. at 156). We have also noted that, apart
from the enumerated requirements, “Rule 23 contains
an implicit threshold requirement that the members
The class certified by the district court initially included those
whose numbers were listed on the individual companies’ Do-NotCall lists. By the time of trial, the class was narrowed to focus
on only those numbers listed on the national Do-Not-Call
registry.
2

18a
of a proposed class be ‘readily identifiable.’” EQT
Prod. Co., 764 F.3d at 358 (quoting Hammond v.
Powell, 462 F.2d 1053, 1055 (4th Cir. 1972)). Under
this principle, sometimes called “ascertainability,” “a
class cannot be certified unless a court can readily
identify the class members in reference to objective
criteria.” Id.
Once these showings have been made, the
plaintiff then bears the burden of demonstrating that
the proposed class fits into one of the specific forms of
class adjudication provided by Rule 23(b). See Ortiz,
527 U.S. at 833. The provision relevant here is Rule
23(b)(3), which is the common vehicle for “mass tort
class actions,” which seek damages for widespread
wrongful conduct. See Gunnells v. Healthplan Servs.,
Inc., 348 F.3d 417, 424 (4th Cir. 2003). Unlike other
forms of class actions, Rule 23(b)(3) requires notice to
class members, who are afforded an opportunity to
opt-out of the class at the certification stage. See Fed.
R. Civ. P. 23(c)(2); 3 William Rubenstein et al.,
Newberg on Class Actions, § 8:1 (5th ed. 2018). The
rule is “designed to secure judgments binding all class
members save those who affirmatively elected to be
excluded.” Amchem Products, Inc. v. Windsor, 521
U.S. 591, 614-15 (1997).
To obtain certification under 23(b)(3), the plaintiff
must show both that “[1] questions of law and fact
common to class members predominate over any
questions affecting only individual class members,
and [2] that a class action is superior to other
available methods for fairly and efficiently
adjudicating the controversy.” Fed. R. Civ. P. 23(b)(3).
The two requirements are unsurprisingly labeled

19a
“predominance” and “superiority.” Since claims
aggregated under Rule 23(b)(3) can be resolved
without the class mechanism, these requirements
ensure that a class action is only used when it makes
sense.
A.
The application of Rule 23 often turns on the
cause of action. See, e.g., Erica P. John Fund, Inc. v.
Halliburton, 563 U.S. 804, 809 (2011). As a general
matter, the limits of Rule 23 are designed to ensure
vigorous adversarial process, efficient adjudication of
class-wide questions, and a practical means of
identifying and notifying those who may be affected
by a judgment. Each of these issues is inextricably
linked with the elements of a particular claim. A
cause of action that includes a fact-bound element or
a claim-specific affirmative defense may be less
susceptible to class treatment than one that does not.
Efficient and manageable classes require common
proof, and the availability of such proof turns on what
exactly needs to be proven. We therefore begin our
analysis by looking to the particular cause of action
created by the TPCA.
The private right of action in § 227(c)(5) offers
many advantages for class-wide adjudication. It
requires a plaintiff to initially show two things: a
number on the Do-Not-Call registry, and two calls
made to that number in a year. The damages,
moreover, can be set at any amount up to $500
without any actual proof of loss. Other relevant
issues, such as the existence of a business
relationship between the solicitor and the recipient of

20a
the call, are likely to be proven by records kept by the
defendant company. The problems that so often
plague class actions under Rule 23(b)(3) are wholly
absent from this scheme. The liability determinations
involve no questions of individual reliance, see, e.g.,
Erica P. John Fund, 563 U.S. at 810-11, no
complicated contractual obligations, see, e.g.,
Halvorson v. Auto-Owners Ins. Co., 718 F.3d 773, 779
(8th Cir. 2013), and no theories of probabilistic injury,
see, e.g., Tyson Foods, Inc. v. Bouaphakeo, 136 S. Ct.
1036, 1045-46 (2016). The damages calculations do
not turn on individual evidence, see, e.g., In re Asacol
Antitrust Litig., 907 F.3d at 52-53, nor are they
difficult to connect to the underlying harm, see, e.g.,
Comcast, 569 U.S. at 35-38. Put simply, a plaintiff
suing under § 227(c)(5) is likely to be in the same
position as a great many other people and can rely
largely on common proof to make out his claim.
Given the remedial purpose of the TCPA, it is no
surprise that its cause of action would be conducive to
class-wide disposition. In enacting the law, Congress
sought to deter an activity that, while pernicious and
disruptive, does not trigger extensive liability in any
single case. Since few individuals would have an
incentive to bring suit, no matter how frustrated they
were with the intrusion on their privacy, the TCPA
opted for a model that allows for resolution of issues
without extensive individual complications.
B.
Since the TCPA clearly supports class-wide
resolution in the abstract, we now consider whether
the statute supports this class in particular. Once

21a
again, the district court certified a class definition
that hewed closely to the TCPA’s text, allowing
Krakauer to sue on behalf of all “persons” who
“received” violative calls during the class period. J.A.
80. Dish nonetheless asserts that this definition is
overbroad. Despite the fact that the relevant
definition of the class is pulled directly from the
statute, Dish argues that the class necessarily
includes a large number of people who have no
statutory claim at all. As Dish sees it, the TCPA’s
private cause of action for violations of the Do-NotCall registry can only be brought by telephone
subscribers, meaning chiefly the individuals who are
“responsible for the payment of the telephone bill,” 47
C.F.R. § 64.1100(h), rather than any person who
received an improper call.
We see no basis for imposing such a limit. The
question of who can sue under a statutory cause of
action turns on whether the party is within the
statute’s “zone of interests.” Lexmark Int’l., Inc. v.
Static Control Components, Inc., 572 U.S. 118, 129-30
(2014). If a plaintiff is the sort of person the law
intended to protect, he can press his claim. To
determine if a plaintiff is within the “zone of
interests,” we simply look to the statute itself.
Accordingly, applying this test requires nothing more
than
“traditional
principles
of
statutory
interpretation,” such that “the outcome will rise and
fall on the meaning of the Congressionally enacted
provision creating [the] cause of action.” Belmora LLC
v. Bayer Consumer Care AG, 819 F.3d 697, 708 (4th
Cir. 2016) (quoting Lexmark, 572 U.S. at 128).

22a
“Traditional
principles
of
statutory
interpretation” leave no doubt as to the right answer
here. The private right of action allows suit by any
“person” who “received” calls that were placed “in
violation of” the TCPA regulations. 47 U.S.C.
§ 227(c)(5). Its coverage is clear, as are its limits. The
text of the TCPA notes that it was intended to protect
“consumers,” not simply “subscribers,” who were
“outraged over the proliferation of intrusive, nuisance
calls to their homes from telemarketers.” Pub. L. No.
102-243, § 2(6). It protects these persons from
“[u]nrestricted telemarketing,” which “can be an
intrusive invasion of privacy.” Id. § 2(5). A nonsubscriber who receives a call can suffer a privacy
intrusion just as easily as a subscriber can. The
extensive legislative history accompanying the TCPA
confirms its broad reach. See Leyse v. Bank of Am.
Nat’l Ass’n, 804 F.3d 316, 325-26 (3d Cir. 2015)
(interpreting the TCPA’s robocalling cause of action).
The text, purpose, and history all cut against
reading the statute as protecting only subscribers. It
is highly unlikely that, in the face of such strong
evidence supporting the plain text, that Congress
would expect us to infer otherwise. Dish’s proposed
limit of the class to subscribers is even more dubious
when one considers that Congress specifically
referenced “subscribers” in other parts of the TCPA,
see, e.g., 47 U.S.C. § 227(f)(2), but did not do so here.
We assume that Congress chooses its words carefully
and does not lightly toss around broad language
(“persons”)
when
more
precise
language
(“subscribers”) is available. As such, we hold that the
cause of action is § 227(c)(5) is not limited to telephone
subscribers.

23a
In response, Dish points us toward decisions
interpreting a range of other federal statutes, none of
which bear much resemblance to § 227(c)(5). Dish is
surely correct that, as a general matter, the “zone of
interests” framework is useful for identifying
important limits on a cause of action which may not
be expressly stated in the law. It is especially
important when the cause of action’s plain text does
not supply meaningful constraints. Does a cause of
action, for example, include competitors? See Assoc. of
Data Processing Serv. Orgs. v. Camp, 397 U.S. 150
(1970). Is it available only to those with harm to their
commercial interests, or also those with other sorts of
injuries? See Lexmark, 572 U.S. at 132. The TCPA,
however, does not leave such questions open. The
statute marks its own boundary. Suit can only be
brought by those who receive multiple violative calls.
Calls are only violative if the phone number was on
the Do-Not-Call registry. And a number can only be
placed on such a registry if the number is a residential
line. Whatever work we may be required to do for
more broadly worded statutes, Congress did the work
for us here.
Finally, Dish argues that the private right of
action in § 227(c)(5) must be limited to “subscribers”
because it is telephone subscribers who can list their
phone numbers on the national Do-Not-Call registry.
See 47 C.F.R. § 64.1200(c)(2). In the face of clear text
pointing the other way, however, we see no reason
that the private right of action should be limited only
to those who can list their numbers on the registry. If
a wife, as the subscriber, lists a home telephone
number on the Do-Not-Call registry, but her husband
happens to be the one who receives the improper calls,

24a
the law has still been violated. Both the wife and the
husband can suffer the harm that Congress sought to
deter, and both are “persons” able to bring a claim
under § 227(c)(5).
C.
With the statute properly in view, the appellant’s
challenge to this class falls away. Appellant’s core
argument seems to be that this class includes a large
number of uninjured persons. Other courts to address
the question of uninjured plaintiffs have done so
through the lens of predominance, asking whether the
differences among the class members are so great that
individual adjudication subsumes the class-wide
issues. See In re Asacol Antitrust Litig., 907 F.3d at
51-53; In re Rail Freight Fuel Surcharge Antitrust
Litig., 725 F.3d 244 (D.C. Cir. 2016); Kleen Prods. v.
Int’l Paper Co., 831 F.3d 919 (7th Cir. 2016). For its
part, the district court took up the issue through the
lens of ascertainability. Regardless of which approach
is used, the issue has no bearing on this case. Because
the private right of action is not as narrow as Dish
and its amici suggest, there is simply not a large
number of uninjured persons included within the
plaintiffs’ class.
With this red herring cast aside, the class
certified by the district court easily meets the
demands of Rule 23. First, the class members are
ascertainable. As we previously explained, class
litigation should not move forward when a court
cannot identify class members without “extensive and
individualized fact-finding or ‘mini-trials.’” EQT
Prod. Co., 764 F.3d at 358. The goal is not to “identify

25a
every class member at the time of certification,” id.,
but to define a class in such a way as to ensure that
there will be some “administratively feasible [way] for
the court to determine whether a particular
individual is a member” at some point. Id. (quoting 7A
Charles Alan Wright et al., Federal Practice and
Procedure, § 1760 (3d ed. 2005)).
The class-wide data obviated any concern on this
score. The records in this case clearly showed when
calls were placed and whether the call went through.
The court was presented with data showing whether
a number was residential and connecting the number
to particular names and addresses. J.A. 179-80. The
class members could therefore be identified on a
large-scale basis, and notified of the class action
accordingly.
Second, the issues common to the plaintiffs
clearly predominated over individual issues. The
predominance inquiry “calls upon courts to give
careful scrutiny to the relation between common and
individual questions in the case.” Tyson Foods, 136 S.
Ct. at 1045. The entire notion of predominance
implies that the plaintiffs’ claims need not be
identical, and, as the Supreme Court has noted, a
class can meet this requirement “even though other
important matters will have to be tried separately.”
Id. (quoting 7AA Charles Alan Wright et al., Federal
Practice and Procedure, § 1778 (3d ed. 2005)).
As the trial court thoroughly documented when
certifying the class, all of the major issues in the case
could be shown through aggregate records. As the
above discussion demonstrates, class-wide records

26a
were produced regarding when calls were made,
whether they went through to the residence, and to
which numbers they were directed. The facts that
were relevant to Dish’s liability were also common to
the class. The plaintiffs argued that SSN was acting
as Dish’s agent at the time it made the improper calls.
This was a question that in all likelihood was common
to the class. And perhaps most significantly, the
plaintiffs sought a statutory damages award,
preventing the need to measure individual
compensatory damages. See In re Asacol Antitrust
Litig., 907 F.3d at 51-53.
While Dish objected to various aspects of the
plaintiffs’ proposed data and argued that individual
fact-finding would be required, the district court
considered these arguments and found them
unpersuasive. J.A. 192-98. For some of these issues,
such as whether a phone number was residential or
commercial, Dish was unable to show any significant
error in the aggregate data offered by the plaintiffs.
For other issues, such as whether the telemarketer
had an existing business relationship with the person
who was called, it would be reasonable to expect Dish
to keep business records, which would themselves be
relevant to the entire class. J.A. 196.
At bottom, the advantages of class resolution
follow directly from the statute. The statute creates a
simple scheme for determining if a violation occurred,
whether a defense is available, and what the damages
ought to be. The district court faithfully applied the
statute when certifying this class. Because its

27a
determinations were reasonable, there is no error for
us to correct. 3
Much like their arguments on standing, Dish and
its amici devote a great deal of attention to the larger
debates that are swirling around class certification.
The question of how best to handle uninjured class
members has led to well-reasoned opinions from our
sister circuits. Were we empowered to issue advisory
opinions, we might have something useful to
contribute to the discussion. A litigated case is not a
symposium, however, and whatever views we may
have on these issues must be left for another day. The
actual plaintiffs in this case can satisfy the
requirements of class certification under well-settled
and broadly accepted principles. Anyone looking for
some grand pronouncement of law in this case has
simply picked the wrong horse.
IV.
The final thrust of Dish’s appeal concerns its own
liability. Dish does not contest that widespread
violations of the TCPA occurred, nor does it dispute
We similarly see no error in the district court’s jury
instructions. The court instructed the jury to determine whether
SSN made two calls to the same number on the Do-Not-Call
registry within a single year. J.A. 517-18. The court left the
question of whether particular names and addresses matched
those numbers to the post-trial claims process. This was
appropriate. The jury heard evidence on whether the calls were
placed and decided that question, which was common to the
class. The court was within its discretion to allow the jury to
resolve only the class-wide issues, while reserving individual
claims disputes for later down the line.
3

28a
that these violations were made for the sole purpose
of selling Dish services. Dish does not even seriously
contest that it knew of the violative conduct. Instead,
it challenges both the jury’s finding that it is liable for
SSN’s conduct and the district court’s separate
determination that Dish’s violations of the law were
knowing and willful.
Both arguments fail, and for the same reason:
Dish characterizes what are essentially factual
disagreements as questions of law, thereby failing to
appreciate the substantial deference owed to the
careful findings made in the proceeding below.
A.
We first consider whether Dish was properly held
liable for the calls that SSN made to members of the
class. The jury concluded that it was because SSN was
acting as Dish’s agent when the calls were made. By
its plain language, the TCPA’s private right of action
contemplates that a company can be held liable for
calls made on its behalf, even if not placed by the
company directly. See 47 U.S.C. § 227(c)(5)
(authorizing claims by “[a] person who has received
more than one telephone call within any 12-month
period by or on behalf of the same entity” (emphasis
added)). While we have no clear definition of “on
behalf of” in the TCPA, we may, at a minimum,
assume that federal statutes are written with
familiar common law agency principles in mind. See
Meyer v. Holley, 537 U.S. 280, 285-86 (2003).
Under traditional agency law, an agency
relationship exists when a principal “manifests

29a
assent” to an agent “that the agent shall act on the
principal’s behalf and subject to the principal’s
control, and the agent manifests assent or otherwise
consents so to act.” See Restatement (Third) of
Agency, § 1.01. Once such a relationship is formed,
“traditional vicarious liability rules ordinarily make
principals … vicariously liable for acts of their agents
… in the scope of their authority.” Meyer, 537 U.S. at
285-86 (collecting cases). “Generally, the existence
and scope of agency relationships are factual
matters,” and are therefore often appropriately left to
the jury. Metco Products, Inc., Div. of Case Mfg. Co. v.
NLRB, 884 F.2d 156, 159 (4th Cir. 1989).
This settled law was clearly spelled out in the jury
instructions. The jury was asked to find whether or
not SSN was Dish’s agent at the time it made the calls
relevant to this case. J.A. 508. If the jury had
answered that question in the negative, that would
have ended the matter. The court carefully explained
that Krakauer had the burden of showing such a
relationship, and that the relationship required
mutual assent and control by Dish. J.A. 514-15. The
court also instructed the jury on the scope of
authority. Specifically, the court instructed the jury
how to assess a situation, as we have here, wherein
the principal’s guidance to the agent may not be
explicit, but instead arises from the principal’s
acquiescence to a course of conduct. J.A. 515-16. As
the district court explained, “to decide whether the
principal acquiesced or consented, you must find that
the principal knew of prior similar activities and
consented or did not object to them.” J.A. 516.

30a
In sum, the district court interpreted the statute
to apply standard legal principles. The question was
then presented to the jury, which ultimately held
Dish liable. Despite Dish’s assertions that the district
court somehow engaged in legal errors on this point,
its challenges bottom out on no more than a
disagreement about the facts.
And to prevail on the facts, Dish must show that
the jury’s conclusion lacks any meaningful support,
viewing “the trial evidence in the light most favorable
to the prevailing party.” See Roe v. Howard, 917 F.3d
229, 231 (4th Cir. 2019). Dish has fallen far short of
clearing that bar. The evidence supporting an agency
relationship between Dish and SSN is considerable.
First, there are the many provisions of the contract
between Dish and SSN affording Dish broad
authority over SSN’s business, including what
technology it used and what records it retained. J.A.
584. Second, SSN was authorized to use Dish’s name
and logo in carrying out its operation. Third, the jury
had before it the Voluntary Compliance Agreement
that Dish entered into with 46 state attorneys
general, wherein Dish clearly stated its authority
over SSN with regard to TCPA compliance. And on
the issue of whether SSN was acting within the scope
of its authority, an array of witnesses testified that
Dish was aware of SSN’s legal violations, took no
meaningful action to ensure compliance, and profited
from SSN’s actions. Faced with this evidence, it was
entirely reasonable for the jury to conclude both that
SSN was acting as Dish’s agent, and that SSN was
acting pursuant to its authority when making the
calls at issue in this case.

31a
Dish offers two arguments in response. First, it
contends that its contract with SSN, which expressly
defined the relationship between the parties, ought to
outweigh the evidence on the ground. It is a familiar
rule of agency, however, that parties cannot avoid the
legal obligations of agency by simply contracting out
of them. See Restatement (Third) of Agency, § 1.02
(“Whether a relationship is characterized as agency in
an agreement between the parties … is not
controlling.”). Agency law, including a principal’s
liability for acts done on his behalf, protects third
parties, who themselves would receive no protection
from
a
contractual
disclaimer.
This
case
demonstrates the need to look beyond the contract, as
a failure to do so might lead to absolving a company,
like Dish, that acquiesced in and benefitted from a
wrongful course of conduct that was carried out on its
behalf.
Parties are of course still free to enter into
contracts establishing independent contractor
relationships, which, among other advantages, allow
large firms to take advantage of the expertise of
smaller companies. The terms of the agreement
between the firms will remain highly relevant to the
legal status of their relationship. At no time, however,
have we suggested that a contractual disclaimer was
alone dispositive. See Robb v. United States, 80 F.3d
884, 893 n.11 (4th Cir. 1996). If the parties want the
benefits of an independent contractor relationship,
they have to actually have one. Dish wanted to
exercise extensive control over SSN’s conduct without
taking on responsibility for that conduct, and that is
what the law does not permit.

32a
Second, Dish argues that because it occasionally
instructed SSN to follow the law, no reasonable jury
could conclude that SSN’s improper telemarketing
calls were done within the scope of SSN’s authority as
Dish’s agent. Dish does not dispute that a principal
can be liable for the illegal acts of an agent. Nor does
it dispute that the acts of an agent can be within the
scope of authority even when no express direction is
given by the principal. The jury was properly
instructed on these points and presented with
evidence showing that Dish knew of SSN’s statutory
violations and its failure to comply with Dish’s
purported instructions. The evidence also showed
that Dish failed to respond to these concerns in any
serious way and was profiting handsomely from
SSN’s sales tactics. It may be that Dish believes that
its warnings and admonitions should have been given
greater weight by the jury. Because the jury resolved
this question and had extensive evidentiary support
for its conclusion, it does not matter whether Dish
now believes its argument to be convincing. Dish had
its chance to persuade the jury, and it lost.
B.
The TPCA authorizes a district court, at its
discretion, to treble the jury’s damages award if it
finds that the defendant’s violations of the law were
“willful[] and knowing[].” 47 U.S.C. § 227(c)(5). After
the jury found Dish liable for the telemarketing
violations here, the district court trebled the damages
under this provision. Examining the jury’s findings,
the court found both that the willful and knowing
standard had been satisfied and that an increased
award was needed “to deter Dish from future

33a
violations and … give appropriate weight to the scope
of the violations.” J.A. 576. There is no basis, either
with regards to the legal standard or the facts, for
disturbing this conclusion on appeal.
We begin with the law. The court identified two
alternative and independent bases for finding Dish’s
conduct to be “willful” and “knowing.” The first was
derived from traditional agency law. As the district
court explained, it is a familiar principle of agency
that “a principal is liable for the willful acts of his
agent committed within the scope of the agent’s
actual authority.” J.A. 570 (citing Restatement
(Third) of Agency § 7.04). The second was grounded in
Dish’s own conduct, apart from the agency
relationship. In articulating the standard applicable
to Dish’s actions standing alone, the court rightly
acknowledged that mere negligence would not be
enough to support trebling the award. Instead, Dish
would only be liable if its actions demonstrated
indifference to ongoing violations and a conscious
disregard for compliance with the law. Id. at 571
(citing United States v. Blankenship, 846 F.3d 663,
673 (4th Cir. 2017)). This is a familiar willfulness
standard that is common to many areas of law. See
Safeco Ins. Co. of Am. v. Burr, 551 U.S. 47, 57 (2007)
(“[W]here willfulness is a statutory condition of civil
liability, we have generally taken it to cover not only
knowing violations of a standard, but reckless ones as
well.”).
Turning to the facts, there is ample support for
each of the district court’s rationales in the record
produced at trial. The court carefully parsed the trial
evidence, noting which evidence it relied on and which

34a
it did not. J.A. 553. Assessments of credibility were
thoroughly explained. Id. On the first rationale,
which imputed SSN’s liability to Dish, the district
court leaned heavily on the factual findings of the
jury. The jury found that SSN was acting as Dish’s
agent when it made the calls in violation of the TCPA.
It also found that this conduct was within the scope of
SSN’s authority as an agent of Dish. As set forth
above, both of these findings were entirely
appropriate. The court then assessed each of Dish’s
arguments against willfulness, rightly noting that
many of these were little more attempts to absolve
itself of legal liability by pointing to contractual terms
and pro forma notices. In doing so, the court found
that Dish’s instructions to SSN were no more than
“empty words” that obscured the true relationship
between Dish and its retailer. J.A. 571.
Similarly, the second rationale, based on Dish’s
own willful conduct, was firmly supported by the
evidence. The court documented the many occasions
on which Dish noted SSN’s noncompliance and failed
to act. The trial court catalogued the lawsuits and
enforcement actions brought against Dish for
telemarketing activities, none of which prompted the
company to seriously improve its business practices:
“While Dish promised forty-six state attorneys
general in 2009 that it would enforce TCPA
compliance by its marketers, Dish did nothing to
monitor, much less enforce, SSN’s compliance with
the telemarketing laws. When it learned of SSN’s
noncompliance, Dish repeatedly looked the other
way.” J.A. 549.

35a
The district court also noted the half-hearted way
in which Dish responded to consumer complaints,
finding that the “evidence shows that Dish cared
about stopping complaints, not about achieving TCPA
compliance.” J.A. 573. The court then assessed Dish’s
arguments to the contrary, finding that its refrain
that it knew nothing of SSN’s widespread violations
was simply not credible: “Given the tens of thousands
of violative calls SSN made in a span of just over a
year, even a cursory investigation or monitoring effort
by Dish would have uncovered the violations. Under
these circumstances, what Dish calls a mistaken
belief is actually willful ignorance.” J.A. 574-75.
Stripped of their labels, Dish’s arguments against
treble damages are simply reassertions of those that
were rejected elsewhere. Dish seems to think that so
long as it includes certain language in a contract or
issues the occasional perfunctory warning to a
retailer the court will not look past the formalities and
examine the actual control exercised by Dish.
Moreover, Dish fails to recognize that repeated
expressions of ignorance as to a widespread problem
can evince more than simply negligence; they can also
be a sign that the violations are known, tolerated, and
even encouraged. Trebling is never to be done lightly.
Given the consequences for a company, a trebled
award must rest on solid evidence. Here there was.
V.
The TCPA was enacted to solve a problem. Simply
put, people felt almost helpless in the face of repeated
and unwanted telemarketing calls. S. Rep. No. 102178, at 1-2 (1991). Congress responded with an Act

36a
that featured a combination of public and private
enforcement, allowing suits both to enjoin intrusive
practices and deter future violations through money
damages. The features of the private right of action in
§ 227(c)(5), whether statutory damages or strict
liability, evince an intent by Congress to allow
consumers to bring their claims at modest personal
expense. These same features also make TCPA claims
amenable to class action resolution. Dish’s
arguments, if accepted, would contort a simple and
administrable statute into one that is both
burdensome and toothless. It would be dispiriting
beyond belief if courts defeated Congress’ obvious
attempt to vindicate the public interest with
interpretations that ignored the purpose, text, and
structure of this Act at the behest of those whose
abusive practices the legislative branch had meant to
curb.
This will not happen. Class adjudication is
complicated, and getting it right requires a careful
parsing of the claims and the evidence from the start.
It also requires striking a balance between efficient
administration and fairness to all those affected,
whether they be the class members, the defendants,
or absent parties who are nonetheless bound by the
judgment. The proceedings below reflected just the
measured and thorough approach that we might hope
for in such demanding situations. For the foregoing
reasons, the judgment is
AFFIRMED.

37a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF
NORTH CAROLINA
THOMAS H. KRAKAUER,

)
)
Plaintiff, )
)
v.
)
)
DISH NETWORK L.L.C.,
)
)
Defendant. )

1:14-CV-333

MEMORANDUM OPINION AND ORDER
Catherine C. Eagles, District Judge.
This matter is before the Court on a motion for
class certification filed by the plaintiff, Thomas
Krakauer. (Doc. 47.) Dr. Krakauer is a member of the
proposed classes and has demonstrated that the
members of the proposed classes are ascertainable.
Dr. Krakauer’s claims are typical of class members,
common questions of law and fact predominate, and
the class action is the superior method of
adjudication. The defendant’s arguments against
predominance are largely speculative and otherwise
present minor potential individual issues that are
manageable and that do not defeat the predominance
of the common, central issues in this case. The Court
will grant the motion for class certification.

38a
BACKGROUND
The Telephone Consumer Protection Act
(“TCPA”) authorizes the Federal Communications
Commission to regulate telemarketing activities and
prohibits sellers from making phone solicitations to
people who list their phone numbers on a national donot-call registry (“NDNC list”) without consent. See
47 U.S.C. § 227(c); 47 C.F.R. § 64.1200(c)(2); see also
Mims v. Arrow Fin. Servs., LLC, 132 S. Ct. 740, 74546 (2012). Congress enacted the TCPA “to curb
abusive telemarketing practices that threaten the
privacy of consumers and businesses” by “placing
restrictions on unsolicited, automated telephone
calls.” Ashland Hosp. Corp. v. Serv. Emps. Int’l Union,
708 F.3d 737, 740-41 (6th Cir. 2013); see also Mims,
132 S. Ct. at 745. Individuals may register land-line
and wireless telephone numbers on the NDNC list.
See United States v. Dish Network, L.L.C., 75 F. Supp.
3d 942, 961 (C.D. Ill. 2014), vacated in part on other
grounds on reconsideration, __ F. Supp. 3d __, 2015
WL 682875 (C.D. Ill. Feb. 17, 2015).
The TCPA also requires sellers and telemarketers
to maintain an “internal” do-not-call list (“IDNC list”),
that is, “a list of persons who request not to receive
telemarketing calls made by or on behalf of that
[seller].” 47 C.F.R. § 64.1200(d); see also Dish
Network, 75 F. Supp. 3d at 960. The TCPA prohibits
a telemarketer from calling individuals on its IDNC
list or on the IDNC list of a seller on whose behalf the
telemarketer calls, even if those individuals’ phone
numbers are not on the NDNC list. See 47 C.F.R.
§ 64.1200(d)(3), (6).

39a
The TCPA creates a private right of action for
injunctive and monetary relief for any “person who
has received more than one telephone call within any
12-month period by or on behalf of the same entity in
violation of the [TCPA] regulations.” 47 U.S.C.
§ 227(c)(5); see also 47 C.F.R. § 64.1200(d)(3) (liability
for IDNC list violations). These rules only apply to
residential telephone numbers; calls to business are
not actionable. See 47 C.F.R. § 64.1200(c)(2), (d)(3).
Calls are also not actionable if a seller has an
“established business relationship” (“EBR”) with a
person, 1 which is created after an individual makes a
purchase, inquiry, or application for products or
services and lasts for a certain number of months. See
47 U.S.C. § 227(a)(4); 47 C.F.R. § 64.1200(c)(2), (f)(5);
see also Snow v. Glob. Credit & Collection Corp., No.
5:13-CV-721-FL, 2014 WL 5781439, at *4 (E.D.N.C.
Nov. 6, 2014) (collecting cases).
DR. KRAKAUER’S MOTION
FOR CLASS CERTIFICATION
In 2003, Dr. Krakauer registered his residential
phone number on the NDNC list. (Doc. 48-1 at 8.) Dr.
Krakauer alleges that Dish Network, a seller of
satellite television programming and related services,
(Doc. 56-4 at ¶ 5), or its authorized dealer, Satellite
Systems Network (“SSN”), called him on this number
numerous times between May 2009 and September
The EBR defense does not apply to an individual’s internal
do-not-call request. See 47 C.F.R. § 64.1200(f)(5)(i) (“The
subscriber’s seller-specific do-not-call request … terminates an
[EBR] for purposes of telemarketing and telephone solicitation
even if the subscriber continues to do business with the seller.”).
1

40a
2011, including at least two calls in a 12-month
period, in violation of the TCPA. (Doc. 32 at ¶¶ 25-30,
54-59.) In these calls, SSN attempted to sell Dr.
Krakauer Dish services. (Doc. 32 at ¶ 26.) The calls
continued even after Dr. Krakauer called Dish to
complain about SSN’s sales tactics and after Dish
placed Dr. Krakauer on its IDNC list and instructed
SSN to do the same. (Doc. 32 at ¶¶ 27-28; see also Doc.
81-51 at 3-12; Doc. 81-54.) During this time, SSN was
an authorized dealer for Dish and only marketed for
Dish. (Doc. 32 at ¶ 28; see also Doc. 48-5 at 6.)
Dr. Krakauer contends that Dish is liable for
these calls under agency principles of actual
authority, apparent authority, and ratification. (Doc.
32 at ¶¶ 30, 54-59.) He seeks injunctive and monetary
relief, (Doc. 32 at 14), and class-wide relief on behalf
of two proposed classes: (1) all persons whose
telephone numbers were on the NDNC list for at least
30 days, but who received telemarketing calls from
SSN to promote Dish between May 1, 2010, and
August 1, 2011 (the “NDNC class”); and (2) all persons
whose telephone numbers were on the IDNC list of
Dish or SSN, but who received telemarketing calls
from SSN to promote Dish between May 1, 2010, and
August 1, 2011 (the “IDNC class”). (Doc. 47.)
ANALYSIS
“The class action is an exception to the usual rule
that litigation is conducted by and on behalf of the
individual named parties only.” Comcast Corp. v.
Behrend, 133 S. Ct. 1426, 1432 (2013) (internal
quotation marks omitted). To show that a case falls
within the exception, the plaintiff “must affirmatively

41a
demonstrate his compliance” with Federal Rule of
Civil Procedure 23. Wal-Mart Stores, Inc. v. Dukes,
131 S. Ct. 2541, 2551 (2011); see also Thorn v.
Jefferson-Pilot Life Ins. Co., 445 F.3d 311, 318 (4th
Cir. 2006) (noting that “district courts must conduct a
rigorous analysis to ensure compliance with Rule 23”
(internal quotation marks omitted)).
As threshold matters, the putative class
representative must show that he is a member of the
proposed class, see Fed. R. Civ. P. 23(a) (“One or more
members of a class may sue … as representative
parties on behalf of all members ….”), and must
establish that the members of the proposed class are
“readily identifiable” or “ascertainab[le].” EQT Prod.
Co. v. Adair, 764 F.3d 347, 358 (4th Cir. 2014). The
plaintiff must then establish that the case satisfies all
four requirements of Rule 23(a) and fits into at least
one of the three subsections of Rule 23(b). Comcast,
133 S. Ct. at 1432; see also Bussey v. Macon Cty.
Greyhound Park, Inc., 562 F. App’x 782, 787-88 (11th
Cir. 2014) (per curiam).
It is undisputed that each of Dr. Krakauer’s two
proposed classes is so numerous that joinder of all
members is impracticable. See Fed. R. Civ. P. 23(a)(1).
The NDNC class as proposed includes 20,450
members and the IDNC class includes 7,831
members. (See Doc. 48 at 10-12; Doc. 48-2 at 10-15.)
Dish has not challenged that there are common
questions of law and fact as to either class, see Fed. R.
Civ. P. 23(a)(2); discussion infra, nor has Dish
challenged Dr. Krakauer’s ability to fairly and
adequately protect the interests of the classes. See
Fed. R. Civ. P. 23(a)(4); (see generally Doc. 56.) Thus

42a
it is undisputed that Dr. Krakauer has met the
requirements of Rule 23(a)(1), (2), and (4), and the
Court so finds. As to the NDNC class, Dish also does
not dispute that Dr. Krakauer is a member of the
putative class. (See Doc. 56 at 33-34.)
As to the IDNC class, Dish challenges whether
Dr. Krakauer has met the threshold requirement of
membership in the class and therefore contends that
his claims are not typical. (See Doc. 56 at 33-34); Fed.
R. Civ. P. 23(a)(3). As to both proposed classes, Dish
challenges whether the class members are
ascertainable, (see Doc. 56 at 14-19), and whether
common questions predominate over questions
affecting only individual members as required by
Rule 23(b)(3). (See Doc. 56 at 19-33); Fed. R. Civ. P.
23(b)(3).
I.

Threshold Issues: Membership in the
IDNC Class and Ascertainability
A. Membership in the IDNC Class

In 2009, Dr. Krakauer had an account with
another satellite television provider, DirecTV. (Doc.
102 at 3.) In May 2009, he received a call from a man
named “Ken” who led him to believe that he could
save money on DirecTV. (See Doc. 102 at 14-15.) Dr.
Krakauer gave Ken his credit card information and,
later in the call, believed Ken had used this
information to pose as him and get his account
information from DirecTV. (See Doc. 102 at 15; Doc.
56-1 at 3.) At some point, Ken said if Dr. Krakauer
switched to Dish he could save money. (See Doc. 102
at 15.) Dr. Krakauer became “annoyed” that Ken

43a
posed as him to get details of his DirecTV account and
ended the call. (Doc. 102 at 15.) When asked if he “told
Ken not to call [him] back again,” Dr. Krakauer
testified that he did not. (Doc. 102 at 17.)
Days later, Dr. Krakauer called Dish and DirecTV
to complain. (See Doc. 102 at 15-16.) Dr. Krakauer
spoke to “Rebecca” with Dish who discovered that Ken
worked for SSN. (See Doc. 102 at 15; Doc. 56-1.) Dr.
Krakauer told Rebecca that he “was annoyed” and
thought it “was completely inappropriate … what
[Dish was] doing.” (Doc. 102 at 15.) In explaining why
he called Dish, Dr. Krakauer testified that he “was
trying to find out what had happened, why [he] had
received this call and why somebody affiliated with
Dish Network would [call to get him] to change … to
Dish” and that he called “to see if Dish Network could
stop it.” (Doc. 102 at 16.) Dr. Krakauer testified that
someone with Dish told him that Ken was not a Dish
employee, but a contractor, so Dish was “not able to
do anything.” (Doc. 102 at 16.)
In internal emails, Dish and SSN employees
characterize Dr. Krakauer’s complaint as a “DNC
issue” or a “‘Do Not Call’ violation.” (See Doc. 56-1;
Doc. 74-7 at 2-3; Doc. 74-1 at ¶ 21.) In one email, a
Dish employee states that she “received the DNC” and
characterizes Dr. Krakauer’s complaint as “his DNC
issue.” In SSN emails, an SSN employee states that,
before Dr. Krakauer’s complaint, SSN “did not know
that [he] wanted off [SSN’s] calling list” and
characterizes the complaint as the type where a
customer asks not to be contacted again. (See Doc. 747 at 2.) Dish also directed SSN to add Dr. Krakauer to

44a
SSN’s IDNC list. (See Doc. 81-54; see also Doc. 87 at 7
n.1.)
Dish does not dispute that Dr. Krakauer
continued to receive calls from SSN promoting Dish.
(See generally Doc. 56.) Dr. Krakauer testified that all
calls after May 2009 were “virtually identical[]” on the
caller’s end and that, each time, he either “was
pleasant and said [he was] not interested … or [he]
just hung up.” (Doc. 102 at 17.)
The TCPA regulations state that if a person
makes “a request … not to receive calls” from a
telemarketer, the telemarketer must place that
person on its IDNC list and not call that person
without consent. 47 C.F.R. § 64.1200(d)(3). Neither
the TCPA nor its regulations define what constitutes
“a request.” Dish contends that Dr. Krakauer has not
provided sufficient evidence “that he made an
affirmative request not to receive future calls.” (See
Doc. 56 at 33-34.) Dr. Krakauer contends that no
“magic words” are required and that he made a
request. (See Doc. 81 at 18-20.)
Dish relies primarily on Bailey v. Domino’s Pizza,
LLC, 867 F. Supp. 2d 835 (E.D. La. 2012). (See Doc.
56 at 33-34; Doc. 74 at 12.) In Bailey, the court
granted the defendant’s motion to dismiss the
plaintiff’s IDNC claims because he did not allege that
he made an “affirmative request” to not receive calls.
See Bailey, 867 F. Supp. 2d at 842. Given the
procedural posture and short discussion of the
relevant regulations, that case is not particularly
helpful in determining what language or evidence

45a
would or would not would constitute “a request” not
to receive calls. See id.
Dr. Krakauer’s testimony as to what he told a
Dish employee and the purpose of his calls to Dish
along with Dish’s and SSN’s internal documents
concerning his complaints support the determination
that Dr. Krakauer made “a request” not to be called.
Dr. Krakauer testified that he called Dish to find out
why someone affiliated with Dish would call “to get
[him] to change from DirecTV to Dish” and “to see if
Dish … could stop it.” (Doc. 102 at 16.) Dish contends
that Dr. Krakauer was only trying to get Dish to
“stop” having its retailers impersonate him to get
account information. (See Doc. 87 at 5-7.) Dr.
Krakauer’s testimony is equally consistent with Dr.
Krakauer asking Dish to “stop” having its retailers
call him to get him to switch to Dish. That is in fact
how Dish and SSN interpreted his calls, as their own
internal documents show. (See Docs. 56-1, 74-7.)
Dish’s argument to the contrary depends on a
strained interpretation of its own internal documents
and the internal documents of its authorized dealer
and ignores their common sense meaning. In internal
emails, Dish and SSN employees generally
characterized Dr. Krakauer’s complaint as a “DNC
issue” or “‘Do Not Call’ violation,” (see Docs. 56-1, 747), and discussed practices to remove such individuals
who do not want to be called. (See Doc. 74-7 at 2.)
While there was one email which characterized Dr.
Krakauer’s complaint as one based on harassment,

46a
that email is ambiguous as to the DNC request. 2 The
post hoc testimony from a Dish manager that Dish
added Dr. Krakauer to its IDNC list “even though
the … [c]omplaint d[id] not reflect that [Dr.]
Krakauer requested to be added to DISH’s IDNC list,”
(Doc. 56-4 at ¶ 14), is not persuasive in the face of the
emails written at the time.
On the whole, Dr. Krakauer has established by a
preponderance of the evidence that he is a member of
the proposed IDNC class. See Brown v. Nucor Corp.,
785 F.3d 895, 931-32 (4th Cir. 2015) (collecting cases).
For purposes of this motion, the Court so finds.
B. Ascertainability
As a threshold matter, Rule 23 requires “that the
members of a proposed class be readily identifiable”
or “ascertainab[le].” EQT, 764 F.3d at 358 (internal
quotation marks omitted). “A class cannot be certified
unless a court can readily identify the class members
in reference to objective criteria.” Id. The plaintiff
bears the burden of offering “a reliable and
administratively feasible mechanism for determining
whether putative class members fall within the class
definition.” Hayes v. Wal-Mart Stores, Inc., 725 F.3d
349, 355 (3d Cir. 2013). If a court cannot identify class
members “without extensive and individualized factIn one Dish email, Dr. Krakauer’s complaint is
characterized as one for “harassment.” Under “Nature of the
complaint,” Dish marked “Yes” beside “Harassment, a malicious
call pattern”” and “No” beside “Caller hung up when asked for
identity or to be added to DNC.” (Doc. 56-1 at 3; see also Doc. 564 at ¶ 12.)
2

47a
finding or ‘mini-trials,’ then a class action is
inappropriate.” EQT, 764 F.3d at 358; see also 7A
Charles Alan Wright et al., Federal Practice and
Procedure § 1760 (3d ed. 2005) (“[T]he requirement
that there be a class will not be deemed satisfied
unless … it is administratively feasible for the court
to determine whether a particular individual is a
member.”). The Court concludes that the class
members are ascertainable.
1. The putative class lists
Dr. Krakauer has offered evidence from Anya
Verkhovskaya who, with her company A.B. Data,
analyzed SSN’s call records and other data to identify
putative class members for both classes. (See Doc. 48
at 9-12; Docs. 48-2 to 48-4.) Dr. Krakauer received
records for calls placed by SSN from Five9, Inc., a
company that provided SSN with software to assist in
making telemarketing calls. (See Doc. 48 at 10-11;
Doc. 48-2 at 8-9; Doc. 56-8 at 4-5.) Ms. Verkhovskaya
used a five-step process and other information from
various data vendors to remove calls that could not
possibly result in TCPA liability, 3 (e.g., Doc. 103 at
11), and, as a result, identified 20,450 members in the
NDNC class and 7,831 members in the IDNC class.
(See Doc. 48 at 11-12; Doc. 48-2 at 10-16.)

Dish separately challenged Ms. Verkhovskaya’s report and
analysis. (Doc. 57.) The Court denied Dish’s motion to strike and
found her expert report and testimony admissible. (Doc. 110.)
That Order discusses Ms. Verkhovskaya’s methodology in
additional detail. (See Doc. 110 at 4-8.)
3

48a
As to the NDNC class, Ms. Verkhovskaya
determined which of the more than 1.6 million calls
in the SSN records were “connected.” (Doc. 48 at 11;
Doc. 48-2 at 8-10; Doc. 103 at 21.) Second, she
identified numbers that received more than one
connected call in any 12-month period during the
class period. (Doc. 48-2 at 10; Doc. 103 at 14-15); see
also 47 U.S.C. § 227(c)(5). Third, she used data from
Nexxa, Inc., a vendor that collects data on when
individuals registered on the NDNC list, to determine
which of these numbers were registered on the NDNC
list as of April 1, 2010. (Doc. 48 at 11; Doc. 48-2 at 4,
10; see also Doc. 103 at 24-25.) Fourth, she removed
non-actionable calls to businesses by (1) removing
calls “assigned the disposition ‘Business’” in the SSN
call logs and then (2) coordinating with LexisNexis, a
vendor that provides information on whether a
number is associated with a business or residence
during a specific time period, to remove additional
business numbers. (Doc. 48 at 11; Doc. 48-2 at 5, 1011; Doc. 103 at 26-28.) Last, she removed nonactionable calls to Dish customers by removing calls
“assigned the disposition of ‘Dish Customer’” in the
SSN call logs. (Doc. 48-2 at 11; Doc. 48 at 11; Doc. 103
at 15.) This resulted in a list of 20,450 unique
numbers that received 57,900 calls. (Doc. 48 at 11-12;
Doc. 48-2 at 11-12.) Using information already in the
SSN call logs and supplemented by Lexis data, she
obtained the names and addresses of most persons
associated with these numbers during the class
period. (Doc. 48 at 12; Doc. 48-2 at 8-9, 12, 15-16; Doc.
103 at 34, 37; see also Docs. 48-2 to 48-4.) These
persons make up the NDNC class. (See Doc. 47.)

49a
For the IDNC class, she performed a similar
analysis. (See Doc. 48-2 at 12-15.) As to Dish’s IDNC
list, Dr. Krakauer provided Ms. Verkhovskaya with
files containing Dish’s IDNC list, and she followed the
same methodology as with the NDNC list and
identified 7,117 unique numbers. (Doc. 48-2 at 12-14.)
As to SSN’s IDNC list, she used the SSN call logs to
identify connected calls with “DNC” or “Do Not Call”
in the disposition field, (Doc. 48-2 at 14); she took this
to mean that these numbers were on SSN’s IDNC list.
(Doc. 103 at 15-17, 21-22.) She then performed steps
two through five above and identified 714 unique
numbers. (Doc. 48-2 at 14-15.) Adding the numbers
from SSN’s and Dish’s IDNC lists, she identified 7,831
numbers that received 22,607 calls in the IDNC class.
(See Doc. 48-2 at 13-15.) As with the NDNC class, Ms.
Verkhovskaya used the SSN call logs supplemented
by Lexis data to obtain the names and addresses of
most persons associated with these numbers during
the class period. (Doc. 48-2 at 13-16; see also Doc. 484 at 36-175.)
2. Standing to sue under Section 227(c)
First, Dish contends that only the telephone
number subscriber has standing to sue under the
TCPA for receiving a telemarketing call on a number
on the NDNC list. (Doc. 56 at 15.) Dish contends that
the data Ms. Verkhovskaya used does not identify the
subscriber and therefore the class members for both
proposed classes are not ascertainable. (Doc. 56 at 1517; see also Doc. 103 at 37-38; Doc. 56-13 at ¶ 7.)
Section 227(c) of the TCPA and the related
regulations protect the privacy of residential

50a
telephone subscribers and allow them to register their
numbers on the NDNC list. See 47 U.S.C. § 227(c); 47
C.F.R. § 64.1200(c)(2) (“No person or entity shall
initiate any telephone solicitation to … [a] residential
telephone subscriber who has registered his or her
telephone number on the [NDNC list] ….”); see also
Mims, 132 S. Ct. at 746. The standing provision,
Section 227(c)(5), states that “[a] person who has
received” a call in violation of the Section 227(c)
regulations may sue. 47 U.S.C. § 227(c)(5). Dish’s
argument that only the subscriber has standing to sue
under Section 227(c) appears to focus on the
provisions allowing subscribers to register their
numbers on the NDNC list, see id. § 227(c)(1)-(3), and
ignores the broader standing provision of Section
227(c)(5).
In Moore v. Dish Network L.L.C., 57 F. Supp. 3d
639 (N.D.W. Va. 2014), the district court considered
the standing provision under Section 227(b). See
Moore, 57 F. Supp. 3d at 648-50. Section 227(b)
prohibits the use of autodialers and prerecorded
messages without the consent of the “called party”
and allows “[a] person or entity” to sue for a violation.
See 47 U.S.C. § 227(b)(1), (3). In Moore, the defendant
contended that only the “called party” had standing to
sue for a Section 227(b) violation. Moore, 57 F. Supp.
3d at 648. The court disagreed and sided with
numerous other courts in concluding that the “plain
language” of Section 227(b)’s standing provision does
not limit standing to the called party and “simply
states that ‘a person or entity’” can sue. See id. at 64850 (collecting cases); see also 47 U.S.C. § 227(b)(3).

51a
In considering whether an individual has
statutory standing, courts consider whether the
individual “is a member of the class given authority
by a statute to bring suit.” CGM, LLC v. BellSouth
Telecomms., Inc., 664 F.3d 46, 52 (4th Cir. 2011).
“Normally, where the statutory language provides a
clear answer, [the] analysis begins and ends with that
language.” Id. at 53 (internal quotation marks
omitted). The Moore defendant presented a similar
argument as Dish has here, and the standing
provision under the TCPA section at issue in Moore
and the one here are similarly broader than the Moore
defendant and Dish contend. Compare 47 U.S.C.
§ 227(b)(3), with 47 U.S.C. § 227(c)(5); see also Moore,
57 F. Supp. 3d at 648-50; (Doc. 56 at 15.)
The TCPA simply states that “[a] person who has
received” a call in violation of the Section 227(c)
regulations may sue and, by its plain language, does
not limit standing to only subscribers. See 47 U.S.C.
§ 227(c)(5); see also Charvat v. EchoStar Satellite,
LLC, 630 F.3d 459, 465 (6th Cir. 2010); Roylance v.
ALG Real Estate Servs., Inc., No. 5:14-cv-02445-PSG,
2015 WL 1522244, at *3 (N.D. Cal. Mar. 16, 2015)
(Grewal, M.J., report and recommendation, adopted
by Freeman, J.) (stating that the plaintiff “has
standing to pursue a claim under Section 227(c)
because he alleges that he had received eight calls in
violation of Section 227(c)”). As did the court in Moore,
the Court rejects Dish’s argument to the contrary.
3. Date of NDNC list registration
Dish contends that the data Ms. Verkhovskaya
used to determine when individuals registered on the

52a
NDNC list is inaccurate and therefore the members
of the NDNC class are not ascertainable. (See Doc. 56
at 17-18.) The only example Dish provides concerns
Dr. Krakauer’s registration date. (See Doc. 56 at 1718.) That example is a red herring.
The data from Nexxa that Ms. Verkhovskaya
used indicates that he registered on June 1, 2003, but
the NDNC list website shows that he registered on
July 3, 2003. (See Doc. 56 at 17-18; Docs. 56-14, 5615.) The discrepancy occurred because Dr. Krakauer
registered his number twice; a Nexxa employee
testified that Nexxa maintains the initial date of
registration while the date on the NDNC website can
be “overwritten” by a later registration. (See Doc. 76
at 14; Doc. 76-4 at ¶¶ 2-5.) This quirk seems unlikely
to occur often, and it is unlikely to be material. As to
Dr. Krakauer, under either date his number was on
the NDNC list for at least 30 days before he received
calls from SSN.
4. Individuals on the IDNC lists of Dish or
SSN
Finally, Dish contends that the data Ms.
Verkhovskaya used to identify individuals on the
IDNC lists is inaccurate and unreliable and therefore
the members of the IDNC class are not ascertainable.
(See Doc. 56 at 18-19.) The TCPA regulations require
telemarketers to maintain IDNC lists, that is, “a list
of persons who request not to receive telemarketing
calls made by or on behalf of [a] person or entity.” 47
C.F.R. § 64.1200(d). A telemarketer must record on its
IDNC list the name and number of a subscriber who

53a
makes “a request” not to receive calls and honor that
request. Id. § 64.1200(d)(3), (6).
Dish has offered evidence that its IDNC list is not
limited to individuals who ask not to be called, but
also includes other individuals Dish has decided not
to call for other reasons, such as allegations of rude
behavior. (See Doc. 56 at 19; Doc. 56-4 at ¶¶ 9-10.)
Dish contends that because its IDNC list includes
more than just individuals who request not to be
called and because neither Dr. Krakauer nor Dish can
tell who on the list made such a request, the members
of the IDNC class are not ascertainable without
“individual fact-finding” as to each putative class
member. (See Doc. 56 at 19.)
Dish’s argument that its IDNC list is
overinclusive and therefore the IDNC class members
are not ascertainable is not persuasive. Dish made
this same argument in an earlier case, and the Court
agrees with that court’s reasoning. See Dish Network,
75 F. Supp. 3d at 1014. If the Court were to deny
certification because Dish does not keep an accurate
list as the regulations require and Dish itself cannot
identify which individuals on the list actually
requested not to be called, it would create the
perverse incentive for entities to keep poor records
and to violate the TCPA’s clear requirement that such
a list be kept. See id. at 1014 n.21; see also Carrera v.
Bayer Corp., No. 12-2621, 2014 WL 3887938, at *3 (3d
Cir. May 2, 2014) (Ambro, J., dissenting) (“Where …
a defendant’s lack of records and business practices
make it more difficult to ascertain the members of an
otherwise objectively verifiable low-value class, the

54a
consumers who make up that class should not be
made to suffer.”).
The fact that Dish has listed a person on its IDNC
list is persuasive circumstantial evidence that a
person associated with that number asked Dish not to
make telemarketing calls. See Dish Network, 75 F.
Supp. 3d at 1014. Dish’s claim that it failed to
distinguish persons who made an internal do-not-call
request from other persons Dish says it decided not to
call for different reasons does not make the list
unreliable or the class members not ascertainable.
As to SSN, Dr. Krakauer did not receive files
containing SSN’s IDNC list as he did with Dish;
rather, he took the disposition codes “DNC” and “Do
Not Call” in SSN’s call records to mean that the called
individual was on SSN’s IDNC list. (See Doc. 48-2 at
14-15; Doc. 103 at 33.) Dish has provided evidence
that these codes mean something completely
different: SSN’s general manager testified that these
codes “do not indicate a ‘do not call’ request,” but
rather signal other SSN agents to not call the
individual because a “particular SSN agent would
personally call back that individual (i.e., it was ‘their
lead’).” (Doc. 56-10 at ¶ 4; see also Doc. 56 at 18.) Dish
contends that the IDNC class members Dr. Krakauer
identified as coming from SSN’s IDNC list are
therefore not ascertainable. (Doc. 56 at 18-19.)
At the Court’s June 30 hearing on the pending
motions, Dish’s counsel stated without dispute that
“SSN is no longer in business, so there is no subpoena
to SSN” for its IDNC list. (See Minute Entry June 30,
2015.) The list derived from SSN’s call logs appears to

55a
be the best record there is of the numbers on SSN’s
IDNC list.
This dispute does not make the SSN IDNC class
members not ascertainable. Ascertainability only
requires that a court be able to “identify the class
members in reference to objective criteria,” EQT, 764
F.3d at 358, which means “that identifying class
members is a manageable process that does not
require much, if any, individual inquiry.” Bussey, 562
F. App’x at 787. Here, Dr. Krakauer’s IDNC class
definition is, inter alia, numbers on SSN’s IDNC list
during the class period. As discussed supra, every
telemarketer is required to maintain an IDNC list
and should have a system in place to notify its
employees of who is on that list. The phrases “DNC”
and “Do Not Call” in SSN’s call records are, in context,
persuasive circumstantial evidence that persons
associated with those numbers had asked to not be
called and, for purposes of this motion, suffice to
provide the IDNC list required by the class definition.
Thus, those class members are ascertainable. Dr.
Krakauer is not required to prove that, without a
doubt, every single person on the class list would be
able to recover to satisfy the ascertainability
requirement. 4 See, e.g., In re Nexium Antitrust Litig.,
777 F.3d 9, 22-23 (1st Cir. 2015); see also discussion
infra.

Whether Dr. Krakauer’s list of persons on SSN’s IDNC list
will persuade a factfinder on the merits is simply a common
question of fact. See discussion supra.
4

56a
II. Rule 23(b)(3)
Dr. Krakauer asserts that this action falls under
Rule 23(b)(3). (See Doc. 47; Doc. 48 at 13.) “Rule
23(b)(3) has two components: predominance and
superiority.” Thorn, 445 F.3d at 319. First, the
predominance requirement tests whether the
proposed class is “sufficiently cohesive to warrant
adjudication by representation” and is satisfied when
“questions of law or fact common to the members of
the class predominate over any questions affecting
only individual members.” Gariety v. Grant Thornton,
LLP, 368 F.3d 356, 362 (4th Cir. 2004); see also Fed.
R. Civ. P. 23(b)(3). “A common question is one that can
be resolved for each class member in a single hearing”
rather than one that “turns on a consideration of the
individual circumstances of each class member.”
Thorn, 445 F.3d at 319. The predominance
requirement focuses on the quality of common issues
rather than just the quantity. See Gunnells v.
Healthplan Servs., Inc., 348 F.3d 417, 429 (4th Cir.
2003); see also EQT, 764 F.3d at 366 (noting that, to
satisfy predominance, the plaintiff must show that
the defendant’s common conduct has sufficient
bearing on the central issue in the litigation). Second,
“[t]he superiority requirement ensures that ‘a class
action is superior to other available methods for the
fair and efficient adjudication of the controversy.’”
Thorn, 445 F.3d at 319 (quoting Fed. R. Civ. P.
23(b)(3)).
Rule 23(b)(3) provides a non-exclusive list of
factors for courts to consider in deciding whether a
class action meets these two requirements:

57a
(A) the class members’ interests in
individually controlling the prosecution or
defense of separate actions; (B) the extent and
nature of any litigation concerning the
controversy already begun by or against class
members;
(C)
the
desirability
or
undesirability of concentrating the litigation
of the claims in the particular forum; and (D)
the likely difficulties in managing a class
action.
Fed. R. Civ. P. 23(b)(3); see also Thorn, 445 F.3d at
319; Stillmock v. Weis Mkts., Inc., 385 F. App’x 267,
278 (4th Cir. 2010).
Dr. Krakauer identifies a number of common
questions of law and fact, (see Doc. 48 at 17-18), and
specifically urges that two common issues
appropriate for class resolution predominate over
individual issues such that a class action is superior
to other methods for resolving the case. (See Doc. 48
at 21-22); see also Fed. R. Civ. P. 23(b)(3). These issues
are: (1) whether SSN called a number on the NDNC
or IDNC lists; and (2) whether Dish is liable for SSN’s
actions. (Doc. 48 at 21-22.)
A. Predominance
1. Common Questions
a. Whether SSN called a putative class
member
Dr. Krakauer proposes to prove that SSN called
the numbers in both classes during the class period

58a
through testimony from one expert witness and using
the SSN call logs. (See Doc. 48 at 23.) Dish has not
disputed that the SSN logs this expert used represent
calls SSN made to promote and sell Dish products and
services during the relevant period. (See Doc. 56 at 8,
11-13.) Nor has Dish disputed that the question of
whether SSN called a number on the NDNC list,
Dish’s IDNC list, or SSN’s purported IDNC list is a
common question that can be decided in one hearing.
(See Doc. 56 at 19-30.) This is the first key question
for determining liability, and it is a common question
of fact.
b. Vicarious liability of Dish for SSN’s
calls
The question of whether SSN made these calls on
Dish’s behalf is the second key question for
determining liability, and its importance cannot be
minimized. Indeed, it is the central issue on which
liability depends. See 47 U.S.C. § 227(c)(5); 47 C.F.R.
§ 64.1200(d)(3). Dish concedes that the question of
whether Dish may be held liable for SSN’s calls under
a theory of actual authority is a common question, but
contends that questions as to liability based on
apparent authority and ratification are not common
questions. (See Doc. 56 at 30-33.)
Under the TCPA, a seller like Dish may be held
vicariously liable for violations committed by a thirdparty telemarketer like SSN if the telemarketer is
acting “on behalf of” the seller. See 47 U.S.C.
§ 227(c)(5); see also Smith v. State Farm Mut. Auto.
Ins. Co., 30 F. Supp. 3d 765, 773 (N.D. Ill. 2014)
(noting that vicarious liability attaches to violations

59a
of Section 227(c)(5)). While neither the TCPA nor its
regulations define “on behalf of,” courts have applied
ordinary principles of agency law to make this
determination. See, e.g., Jackson v. Caribbean Cruise
Line, Inc., __ F. Supp. 3d __, __, 2015 WL 667862, at
*5-6 (E.D.N.Y. Feb. 17, 2015); Smith, 30 F. Supp. 3d
at 777; Donaca v. Dish Network, LLC., 303 F.R.D.
390, 394 (D. Colo. 2014); Mey v. Monitronics Int’l, Inc.,
959 F. Supp. 2d 927, 932 (N.D.W. Va. 2013). A seller
can be held vicariously liable if there is actual
authority, apparent authority, or ratification. See
Smith, 30 F. Supp. 3d at 772-73; Donaca, 303 F.R.D.
at 394; Mey, 959 F. Supp. 2d at 932. Dr. Krakauer
relies on all three theories. (See Doc. 48 at 17-18; Doc.
75 at 19-23.)
It is well-established that whether an agency
relationship exists is a factual determination. See
Ashland Facility Operations, LLC v. N.L.R.B., 701
F.3d 983, 990 (4th Cir. 2012). As noted supra, Dish
does not dispute that the question of actual authority
is a question common to all class members, (see Doc.
56 at 30-33), as actual authority depends only on the
relationship and conduct between Dish and SSN. See
Ashland Facility, 701 F.3d at 990. If Dr. Krakauer can
prove to a jury’s satisfaction that SSN had actual
authority to make the calls at issue on Dish’s behalf,
the class may recover from Dish for any violations by
SSN. Thus, the issue of actual authority is a common
question of fact that is central to this case.
The issues of apparent authority and ratification
are less clear. There is a significant dispute between
the parties as to the appropriate legal tests to be

60a
applied to determine liability
authority and ratification.

under

apparent

For both theories, Dr. Krakauer relies on the
FCC’s interpretation embodied in a 2013 declaratory
ruling. (See Doc. 75 at 19-23); see also In re Dish
Network, LLC, 28 FCC Rcd. 6574, 2013 WL 1934349
(May 9, 2013); Mey, 959 F. Supp. 2d at 932. As to
apparent authority, Dr. Krakauer contends that it is
sufficient to show that Dish allowed SSN to hold itself
out as an authorized Dish dealer or that Dish allowed
SSN to use certain information and systems in Dish’s
control. (See Doc. 75 at 20-22); see also In re Dish
Network, 2013 WL 1934349, at *15; Mey, 959 F. Supp.
2d at 932. As to ratification, he contends that it is
sufficient to show that Dish was aware that SSN
routinely violated the TCPA and did not terminate
SSN as an authorized dealer. (See Doc. 75 at 22-23);
see also In re Dish Network, 2013 WL 1934349, at *15.
If Dr. Krakauer is correct, both theories would
present common questions of fact as they, too, concern
only the relationship between Dish and SSN.
Dish contends that apparent authority requires
proof that: (1) the called individual reasonably
believed that Dish consented to have SSN act for
Dish; and (2) the individual’s belief is based on some
conduct traceable to Dish. (See Doc. 56 at 30-31.) Dish
contends that ratification requires proof that: (1) SSN
represent to each caller that it is calling on Dish’s
behalf; (2) Dish have knowledge of and assent to each
call; and (3) knowingly accept some benefit from each
call. (See Doc. 56 at 32; see also Doc. 74 at 22-25.) If
Dish’s view is correct, both theories would present
individual questions of fact as to every class member.

61a
Numerous courts have concluded that the FCC’s
guidance on apparent authority and ratification is not
binding nor entitled to deference and have rejected
this guidance as inconsistent with common law
agency principles. See, e.g., Dish Network, L.L.C. v.
F.C.C., 552 F. App’x 1, 2 (D.C. Cir. 2014) (per curiam)
(“The FCC agrees that the ‘guidance’ in question has
no binding effect on courts [and] is not entitled to
deference ….”); Toney v. Quality Res., Inc., 75 F. Supp.
3d 727, 744-45 (N.D. Ill. 2014); Smith, 30 F. Supp. 3d
at 778-79; Dish Network, 75 F. Supp. 3d at 1018.
The question of what legal standard applies to the
determination of apparent authority and ratification
is a common question of law. Dish is highly likely to
win on this question, however, as the reasoning in the
cases it cited is quite persuasive. (E.g., Doc. 56 at 3032.) This would mean that apparent authority and
ratification would involve many individual questions.
On the other hand, it will not be necessary to reach
apparent authority or ratification if Dr. Krakauer and
the class prevail on an actual authority theory. It is
also likely that Dr. Krakauer will be unable to muster
sufficient evidence of apparent authority or
ratification, see Dish Network, 75 F. Supp. 3d at 101618 (discussing the plaintiff’s lack of class-wide
evidence on these theories), such that these two issues
will likely disappear from the case.
2. Individual questions
Dish identifies several issues concerning both
classes that it says will have to be determined on an
individual basis and contends that these individual
issues predominate and preclude certification under

62a
Rule 23(b)(3). (See Doc. 56 at 20.) Dish contends that
an individual determination will have to be made as
to whether: (1) a phone number, including a wireless
number, is associated with a business; (2) Dish had
an established business relationship with a class
member at the time of a call; (3) an individual first
called SSN; and (4) an individual consented to be
called. (See Doc. 56 at 20-30.)
a. Is the number called a business
number?
The TCPA section at issue only prohibits calls to
residential numbers. See 47 C.F.R. § 64.1200(c)(2),
(d)(3); see also 47 U.S.C. § 227(c)(5). Dr. Krakauer, as
the plaintiff, bears the burden to prove that a number
called was residential. See Dish Network, 75 F. Supp.
3d at 1024. Dish contends that Dr. Krakauer’s expert
did a poor job of removing business numbers from the
putative class list and made no effort to remove
wireless numbers associated with businesses. (See
Doc. 56 at 23-26; see also Docs. 56-18 to 56-21.) As a
result, Dish says that “hundreds” of individual
inquiries will be needed. (See Doc. 56 at 23-26.)
Dish has not presented evidence to support these
contentions. Dish has only presented evidence of a few
dozen numbers that appear to be business or mixed
use, (see Docs. 56-18 to 56-21), and has submitted no
evidence, and indeed only counsel’s assertions in a
brief, that there are “hundreds” or “many” others. (See
Doc. 56 at 23-26); see also Adjabeng v.
GlaxoSmithKline, LLC, No. 1:12-CV-568, 2014 WL
459851, at *3 (M.D.N.C. Feb. 5, 2014) (collecting cases

63a
holding that counsel’s unsworn statements in briefs
are not evidence).
The fact that a class list contains members whose
claims may fail on the merits does not mean that the
class cannot be certified. “[E]xcluding all uninjured
class members at the certification stage is almost
impossible
in
many
cases,
given
the
inappropriateness of certifying what is known as a
‘fail-safe class’—a class defined in terms of the legal
injury.” Nexium, 777 F.3d at 22; see also Messner v.
Northshore Univ. HealthSystem, 669 F.3d 802, 825
(7th Cir. 2012) (noting that a fail-safe class “is
improper because a class member either wins or, by
virtue of losing, is defined out of the class and is
therefore not bound by the judgment”). But, “a class
should not be certified if it is apparent that it contains
a great many persons who have suffered no injury at
the hands of the defendant.” Kohen v. Pac. Inv. Mgmt.
Co. LLC, 571 F.3d 672, 677 (7th Cir. 2009). “There is
no precise measure for ‘a great many.’ Such
determinations are a matter of degree, and will turn
on the facts as they appear from case to case.”
Messner, 669 F.3d at 825.
Dr. Krakauer will have to prove that the class
members are entitled to relief, i.e., that their numbers
were used for residential purposes at the time.
Certifying the class with a few dozen possible
business numbers included does not obviate Dr.
Krakauer’s ultimate burden of proof. Based on the
record before the Court, it does not appear that the
putative class list “contains a great many persons who
have suffered no injury.” See Kohen, 571 F.3d at 677.
Even if resolution of these issues requires some

64a
individualized inquiry, these issues are not complex
and are entirely manageable. See Fed. R. Civ. P.
23(b)(3)(D).
As to wireless numbers, Dish additionally relies
on United States v. Dish Network where the court
noted that the FCC presumes that a wireless number
on the NDNC list is residential but “may require a
complaining wireless subscriber to provide further
proof of the validity of that presumption.” Dish
Network, 75 F. Supp. 3d at 1024; (see also Doc. 56 at
26.) The wireless phone user still bears the burden of
proving that the number was used for residential
purposes; the “administrative presumption” only
allows wireless users to register on the NDNC list. See
Dish Network, 75 F. Supp. 3d at 1024; (see also Doc.
56 at 26.) Dish contends that this means that, at the
certification stage, Dr. Krakauer must show that any
wireless number is a residential number. (See Doc. 56
at 26.) However, the district court discussed the
presumption in the context of summary judgment and
noted that it was an issue of fact for trial as to
whether the wireless calls were to residences. See
Dish Network, 75 F. Supp. 3d at 1024. This case says
nothing about the wireless residential/business issue
at the certification stage.
To the extent Dish has evidence that some
numbers on Dr. Krakauer’s putative class list were
associated with businesses during the class period,
Dish can present that evidence through an expert
witness using data from Lexis or another vendor. On
the record before the Court, to the extent resolution of
these issues presents individual questions, these
questions appear few in number, straightforward,

65a
and peripheral to the central issues in this litigation
discussed supra.
b. Is there an established business
relationship?
A call is exempt from TCPA section at issue if the
seller has an established business relationship
(“EBR”) with the residential subscriber. See 47 U.S.C.
§ 227(a)(4), (c)(3)(F); 47 C.F.R. § 64.1200(c)(2), (f)(5),
(f)(14)(ii); see also Snow, 2014 WL 5781439, at *4
(collecting cases); Wolfkiel v. Intersections Ins. Servs.
Inc., 303 F.R.D. 287, 291 (N.D. Ill. 2014); but see supra
note 1. EBR is a defense for Dish to prove, and the
absence of an EBR is not an element of a TCPA claim
that Dr. Krakauer has to prove. See Dish Network, 75
F. Supp. 3d at 1008 (discussing the EBR defense and
stating that “[a]n exemption from the general rule is
treated as an affirmative defense for which [the
defendant] bears the burden of proof”). Nonetheless,
Ms. Verkhovskaya testified that she excluded from
Five9 call logs phone numbers with “Dish Customer”
in the disposition field. (See Doc. 103 at 15, 32; see also
Doc. 48-2 at 11.)
Dish first contends that it provided a customer
list to Dr. Krakauer and that he failed to remove
“thousands” of customers on this list from the class.
(See Doc. 56 at 21-22.) Dr. Krakauer contends that the
list has not been prepared in a way that allowed him
or his expert to exclude customers from the class list.
(See Doc. 75 at 17.) The list itself is certainly
incomprehensible, (see Doc. 75 at 17; see, e.g., Doc. 5616 at 2), and Dish has not provided evidence or

66a
explained to the Court as to how it could be used to
exclude such customers.
Dish next contends that Dr. Krakauer must offer
a method that would allow Dish to prove this EBR
defense on a class-wide basis and that he has failed to
do so. (See Doc. 56 at 22-23.) This position is correct.
First, the presence of affirmative defenses does
not “automatically” render class certification
inappropriate. See Brown v. Kelly, 609 F.3d 467, 483
(2d Cir. 2010). “Rather, like other considerations,
affirmative defenses must be factored into the
calculus of whether common issues predominate.”
Gunnells, 348 F.3d at 438. When the defendant’s
affirmative defenses “may depend on facts peculiar to
each [class member’s] case, class certification is
erroneous.” Broussard v. Meineke Disc. Muffler
Shops, Inc., 155 F.3d 331, 342 (4th Cir. 1998)
(internal quotation marks omitted). In cases where
the Fourth Circuit has denied certification based on
issues presented by an affirmative defense, the
defense at issue involved “considerable individual
inquiry.” See Gunnells, 348 F.3d at 434 (each class
member’s reliance); Thorn, 445 F.3d at 317 (each class
member’s knowledge); Broussard, 155 F.3d at 342-43
(both).
Here, Dish has again provided no evidence to
support its assertion that there are “thousands” of
customers on the class list as to whom it would be
entitled to an EBR defense; indeed, it has identified
only 16 such persons. (See Doc. 56 at 22; Doc. 56-17.)
As noted supra, unsubstantiated claims in a brief do

67a
not preclude class certification. See Adjabeng, 2014
WL 459851, at *3 (collecting cases).
Moreover, even if there are several times this
number, it appears highly likely that this defense can
in fact be resolved on a class-wide basis, at least in
large part. As Dr. Krakauer has demonstrated, (see
Doc. 48 at 21-22; Doc. 75 at 17), Dish can prove this
defense by, for example, offering a comprehensible
customer list along with testimony about the list and
which calls were to Dish customers; the factfinder
could then determine whether those individuals as a
group are not entitled to recover because of an EBR.
To the extent there are a few situations where
individual inquiry into the dates during which Dish is
entitled to the EBR defense may be needed or where
the parties dispute these dates, these issues appear to
be easily manageable.
Resolution of the EBR defense does not involve
“considerable individual inquiry,” and individual
hearings will not be routinely necessary to determine
if a putative class member was a Dish customer at the
time of a call. Cf. Gunnells, 348 F.3d at 434; Thorn,
445 F.3d at 317. Rather, identifying a company’s
customers during a time period should be an
“objectively verifiable” task. See Carrera, 2014 WL
3887938, at *3 (Ambro, J., dissenting). Dr. Krakauer
has demonstrated how Dish can assert this defense on
a class-wide basis. To the extent resolution of this
defense involves any inquiry into individual
circumstances, such an inquiry is simple and
mundane. See Gunnells, 348 F.3d at 429.

68a
c. Did a putative class member contact
SSN?
If an individual first contacted SSN and made an
“inquiry or application” for Dish products or services,
this would establish an EBR and allow SSN to contact
that individual for up to three months. See 47 C.F.R.
§ 64.1200(f)(5). Dish contends that such calls cannot
be determined without individualized inquiry. (Doc.
56 at 26-28.) Just as with its arguments on business
numbers and EBRs with customers, Dish has done
little more than speculate about the frequency of this
potential issue and the difficulties it would raise in a
class setting. 5 (See Doc. 56 at 26-27; Doc. 56-22.)
Moreover, to the extent Dish contends that the
call records on which Dr. Krakauer relies are
insufficient to allow Dish to identify every possible
call to which it can assert this defense, (see Doc. 56 at
27-28; Doc. 56-23 at 3; Doc. 56-10 at ¶¶ 9, 12), that is
not Dr. Krakauer’s fault. If the records that Dish and
Indeed, Dish’s statement that there are “a multitude” of
instances of a putative class member initiating a call to SSN,
(Doc. 56 at 27), is of no moment, as unsworn statements by
counsel in briefs such as these are not evidence. See Adjabeng,
2014 WL 459851, at *3 (collecting cases). Further, if one were to
speculate, one might speculate that it is unlikely that a person
who asked to be placed on a do-not-call list would actually
initiate a telephone call to a telemarketer making calls on behalf
of Dish. One might also speculate that a person interested in
Dish products would call Dish, not a Dish telemarketer. Lastly,
Dish has only presented an exhibit of 14 numbers it contends are
instances of an individual first calling SSN. (See Doc. 56 at 27;
Doc. 56-22.) For these few individuals, the Court can manage the
individual EBR defense.
5

69a
its affiliates keep do not allow Dish to identify every
possible EBR, that should not preclude persons with
valid claims from recovering, nor does it prevent class
certification under Rule 23(b)(3).
d. Did a putative class member consent
to be called on a NDNC number?
Dish maintains that there is no TCPA violation if
an individual voluntarily gives a telemarketer a
number registered on the NDNC or asks to be called
back at such a number. 6 (Doc. 56 at 28-30); see 47
C.F.R. § 64.1200(c)(2), (f)(14)(i); see also Mais v. Gulf
Coast Collection Bureau, Inc., 768 F.3d 1110, 1118
(11th Cir. 2014). Ms. Verkhovskaya testified that her
analysis did not identify calls where SSN first called
an individual on a non-NDNC number and the
individual asked to be called back on a different
number on the NDNC list. (See Doc. 103 at 25, 37;
Doc. 56 at 28.)
Dish contends that this gives rise to individual
issues, but it again provides only a handful of
examples supported by unsworn statements in a
brief. 7 (See Doc. 56 at 29-30; Docs. 56-24, 56-25.)
Dish contends that these calls would be exempt from the
TCPA either because of the called individual’s consent, see 47
C.F.R. § 64.1200(c)(2), (f)(14)(i); Mais v. Gulf Coast Collection
Bureau, Inc., 768 F.3d 1110, 1118 (11th Cir. 2014), or by
establishing an EBR based on an inquiry. See 47 C.F.R.
§ 64.1200(f)(5); Hamilton v. Spurling, No. 3:11cv00102, 2013 WL
1164336, at *10-11 (S.D. Ohio Mar. 20, 2013) (opinion of
Ovington, M.J.); (Doc. 56 at 28-30.)
6

As to the calls where Dish contends SSN first called an
individual on a NDNC number and the individual asked to be
7

70a
Second, as discussed supra, the fact that it is
impossible to exclude all uninjured class members at
this stage does not prevent certification. See Nexium,
777 F.3d at 22; Kohen, 571 F.3d at 677.
3. Evaluation of predominance
“[P]redominance under Rule 23(b)(3) requires
that common issues predominate, but does not
require all issues to be common.” In re Polyester
Staple Antitrust Litig., No. 3:03CV1516, 2007 WL
2111380, at *27 (W.D.N.C. July 19, 2007) (collecting
cases). There are two central factual issues that loom
over this entire case: (1) whether SSN made the calls
at issue; and (2) whether Dish is liable for SSN’s calls
under agency principles. To recover from Dish, Dr.
Krakauer would have to prove that SSN called a
called back, Dish cites an affidavit from an SSN general
manager who testified that the call logs had a “Comments” field
where SSN agents could enter notes or additional information
about the calls. (See Doc. 56 at 30; Doc. 56-10 at ¶ 6.) This
testimony says nothing about how frequently putative class
members requested to be called back. Dish filed an exhibit
including 10 numbers it contends are calls where an individual
asked to be called back, but this conclusion appears to be based
solely on Dish’s counsel’s interpretation of the comments. (See
Doc. 56 at 30; Doc. 56-25.) Dish’s assertion that this happened to
any calls in the putative class list is largely speculative and
unsupported by evidence. See Adjabeng, 2014 WL 459851, at *3
(collecting cases).
Moreover, to the extent that Dish has admissible evidence
that these 10 calls were made in response to an individual’s
request to be called back, it can present such evidence, and the
Court can easily manage any individual issues as to these few
numbers and calls.

71a
number on the NDNC list or the IDNC list of Dish or
SSN at least twice during any 12-month period, that
SSN made these calls on behalf of Dish, and that Dish
is liable for SSN’s actions under agency principles.
(See Doc. 48 at 17, 21-22.)
These questions “can be resolved for each class
member in a single hearing” and do not “turn[] on a
consideration of the individual circumstances of each
class member.” Thorn, 445 F.3d at 319. Indeed, these
are the central issues to this litigation and
predominate in quality and complexity over any
potential individual issues. See EQT, 764 F.3d at 366;
Gunnells, 348 F.3d at 429 (noting that a greater
quantity of individual issues as compared to common
issues does not necessarily mean common issues do
not predominate where the common issues “far exceed
in complexity [as compared to] the more mundane
individual … issues”).
As discussed supra, the question of whether a
putative class member was a Dish customer at the
time of a call should be a simple and objectively
verifiable task, requiring little more than reference to
Dish’s own records. Dish’s claim that the putative
class list contains “hundreds” or “a multitude” of nonactionable calls, (Doc. 56 at 23, 27), is not supported
by evidence. While there are potentially a number of
individual issues, these issues appear to apply to only
a small number of class members and are
straightforward. These minor, peripheral issues do
not defeat the predominance of the central issue:
whether the calls were made by Dish’s agent. The
essential elements of the class members’ claims can

72a
be proven at trial with common, as opposed to
individualized, evidence. See Hayes, 725 F.3d at 359.
The Court finds that common questions of fact
and law predominate.
B. Superiority
A class action is the superior method of litigation
in this case. Given the relatively small statutory
damages, see 47 U.S.C. § 227(c)(5), the class members
likely have little interest in controlling the litigation
in this case. See Fed. R. Civ. P. 23(b)(3)(A); Gunnells,
348 F.3d at 425; see also Amchem Prods., Inc. v.
Windsor, 521 U.S. 591, 616-17 (1997); In re Warfarin
Sodium Antitrust Litig., 391 F.3d 516, 533-34 (3d Cir.
2004). Further, the type of injury allegedly suffered
by the class members is not, for example, a personal
injury or death where a plaintiff would ordinarily
have “a substantial stake in making individual
decisions on whether and when to settle.” Amchem,
521 U.S. at 616.
There is no evidence of any litigation begun by or
against any class members, see Fed. R. Civ. P.
23(b)(3)(B); Gregory v. Finova Capital Corp., 442 F.3d
188, 191-92 (4th Cir. 2006), and given the large
number of class members and claims, class-wide
adjudication of the claims would be more efficient. See
Gunnells, 348 F.3d at 432-33; Warfarin, 391 F.3d at
533-34. Adjudicating these claims in one forum would
provide flexibility, control, and consistency that
would not exist with individual litigation. See Fed. R.
Civ. P. 23(b)(3)(C); Gunnells, 348 F.3d at 425. And, as
discussed supra, the potential individual issues do not

73a
present great difficulties in managing the class. See
Fed. R. Civ. P. 23(b)(3)(D).
The Supreme Court has noted that, through Rule
23(b)(3), “the Advisory Committee sought to cover
cases in which a class action would achieve economies
of time, effort, and expense, and promote uniformity
of decision as to persons similarly situated, without
sacrificing procedural fairness or bringing about other
undesirable results.” Amchem, 521 U.S. at 615
(internal quotation marks and ellipsis omitted).
Class-wide adjudication would achieve each of these
goals.
Moreover, the legislative intent behind the TCPA
supports the view that class action is the superior
method of litigation. “[I]f the goal of the TCPA is to
remove a ‘scourge’ from our society, it is unlikely that
‘individual suits would deter large commercial
entities as effectively as aggregated class actions and
that individuals would be as motivated … to sue in
the absence of the class action vehicle.’” Jay Clogg
Realty Grp., Inc. v. Burger King Corp., 298 F.R.D. 304,
309-10 (D. Md. 2014) (quoting Landsman & Funk PC
v. Skinder-Strauss Assocs., 640 F.3d 72, 95 (3d Cir.
2011)); see also Amchem, 521 U.S. at 617.
III. Conclusion
Dr. Krakauer has met the threshold requirements
for class certification by demonstrating that he is a
member of both proposed classes and that the class
members are ascertainable. It is undisputed that Dr.
Krakauer’s proposed classes satisfy the numerosity,
commonality, and adequacy of representation

74a
requirements of Rule 23(a)(1), (2), and (4). By
demonstrating membership in the classes, Dr.
Krakauer has satisfied the typicality requirement of
Rule 23(a)(3). Dr. Krakauer’s proposed classes satisfy
Rule 23(b)(3) as common questions of law and fact
predominate, and class action is the superior method
of adjudication. As to Dish’s arguments against
predominance, the Court concludes that Dr. Krakauer
has demonstrated that Dish may raise most of its
defenses on a class-wide basis with minimal, if any,
individual inquiry and that Dish’s other arguments
are largely speculative; any individual issues that
exist are minor and do not defeat the class action
because common issues nevertheless predominate.
It is ORDERED that the motion for class
certification, (Doc. 47), is GRANTED.
This the 9th day of September, 2015.
/s/ Catherine C. Eagles
UNITED STATES
DISTRICT JUDGE

75a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF
NORTH CAROLINA
THOMAS H. KRAKAUER,

Plaintiff,

v.

DISH NETWORK L.L.C.,

)
)
)
)

)
)
)
)
)

1:14-CV-333

Defendant.
ORDER
This matter is before the Court on defendant Dish
Network L.L.C.’s motion to dismiss, or, in the
alternative, decertify the NDNC and IDNC classes
based on Spokeo, Inc. v. Robins and insufficient class
notice. (Doc. 196). Dr. Krakauer’s allegations show a
concrete injury to him and to each class member, and
the class notice was generally effective. The motion
will be denied.

76a
I.

Concrete injury

“Standing to sue is a doctrine rooted in the
traditional understanding of a case or controversy.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016);
see generally U.S. Const. art. III, § 2. To satisfy the
doctrine of standing, a “plaintiff must have (1)
suffered an injury in fact, (2) that is fairly traceable
to the challenged conduct of the defendant, and (3)
that is likely to be redressed by a favorable judicial
decision.” Spokeo, 136 S. Ct. at 1547. “To establish
injury in fact, a plaintiff must show that he or she
suffered ‘an invasion of a legally protected interest’
that is ‘concrete and particularized’ and ‘actual or
imminent, not conjectural or hypothetical.’” Id. at
1548 (citing Lujan v. Defenders of Wildlife, 504 U.S.
555, 560 (1992)).
In Spokeo, the Supreme Court re-affirmed the
requirement that an injury must be “concrete.” 136 S.
Ct. at 1548. That case involved a class action under
the Fair Credit Reporting Act where the defendant
had moved to dismiss for lack of jurisdiction. Id. at
1546. In the Ninth Circuit’s decision denying the
motion, the court found that the injury was concrete
because the plaintiff alleged that “Spokeo violated his
statutory rights, not just the statutory rights of other
people,” and that the plaintiff’s “personal interests in
the handling of his credit information are
individualized rather than collective.” Id. at 1548
(emphasis added in Supreme Court opinion). The
Supreme Court held that this analysis failed to
address concreteness and that the Ninth Circuit’s
analysis was therefore “incomplete.” Id. at 1548,
1550. In particular, the Court held that a “bare

77a
procedural violation [of a statute], divorced from any
concrete harm,” is not sufficiently concrete. Id. at
1549. The Supreme Court vacated the Ninth Circuit
decision and remanded but took no position on the
ultimate outcome of the standing analysis. Id. at
1550.
Spokeo clarified the meaning of a concrete injury,
but it did not fundamentally change the doctrine of
standing or jurisdiction. Mey v. Got Warranty, Inc.,
No. 5:15-CV-101, 2016 WL 3645195, at *2 (N.D.W.
Va. June 30, 2016) (“Spokeo appears to have broken
no new ground.”). A concrete injury must “actually
exist,” but it can be intangible. Spokeo, 136 S. Ct. at
1548-49. Concrete injuries include injuries whose
“harms may be difficult to prove or measure,” such as
libel, and include injuries where there is a “risk of real
harm.” Id. at 1549 (emphasis added).
Dish now alleges that neither Dr. Krakauer nor
any class member has alleged a concrete injury and
that the suit should be dismissed for lack of subject
matter jurisdiction. (Doc. 197 at 7). Dish alternately
contends that the class should be decertified for the
same reason. (Id. at 10). The concreteness
requirement of constitutional standing has not
previously been raised by Dish or discussed by the
Court. 1

Dish contends that this Court previously addressed
standing and made the same mistake as the Ninth Circuit in
Spokeo. (Doc. 197 at 2). However, this Court’s analysis—and
Dish’s
objection—concerned
statutory
standing,
not
constitutional standing. (Doc. 111 at 13; Doc. 56 at 15). The two
1

78a
Telemarketing calls made in violation of the
Telephone Consumer Protection Act (“TCPA”) are
more than bare procedural violations; here, Satellite
Systems Network, Dish’s alleged agent, actually
called the class members’ numbers. These calls form
concrete injuries because unwanted telemarketing
calls are a disruptive and annoying invasion of
privacy. See 137 Cong. Rec. 30,821 (1991) (“They wake
us up in the morning; they interrupt our dinner at
night; they force the sick and elderly out of bed; they
hound us until we want to rip the telephone right out
of the wall.”); Maryland v. Universal Elections, Inc.,
729 F.3d 370, 376-77 (4th Cir. 2013) (recognizing that
the TCPA “protects residential privacy” by allowing
recipients to stop future calls); see also Nat’l Fed’n of
the Blind v. F.T.C., 420 F.3d 331, 342 (4th Cir. 2005)
(acknowledging that the Telemarketing Sales Rule’s
do-not-call provision allows consumers to stop call
that might “disturb their peace”).
While class members did not necessarily pick up
or hear ringing every call at issue in this case, each
call created, at a minimum, a risk of an invasion of a
class member’s privacy. Spokeo clarified that a “risk
of real harm” was enough to show concrete injury. 136
S. Ct. at 1549. Therefore, each call made to a class
member on a do-not-call list formed a concrete injury
by creating a material risk of an injury to privacy.
Post-Spokeo cases have consistently concluded
that calls that violate the TCPA establish concrete
doctrines are separate. See CGM, LLC v. BellSouth Telecomms.,
Inc., 664 F.3d 46, 52 (4th Cir. 2011).

79a
injuries. See Booth v. Appstack, Inc., No. C131533JLR, 2016 WL 3030256, at *5 (W.D. Wash. May
25, 2016) (finding that the injury caused by robocalls
that violate the TCPA is “sufficiently concrete”); Mey,
2016 WL 3645195, at *3 (finding that “unwanted
phone calls cause concrete harm”); Rogers v. Capital
One Bank (USA), N.A., No. 1:15-CV-4016, 2016 WL
3162592, at *2 (N.D. Ga. June 7, 2016) (finding that
calls to cell phone numbers in violation of the TCPA
establish concrete injuries). Some of these cases
involved robocalls made with a pre-recorded voice
message instead of, as is the case here, calls made by
a live person; however, from the recipient’s point of
view, the injury caused is nearly identical.
Because Dr. Krakauer made allegations sufficient
to show that he and all class members have suffered
a concrete injury to their privacy, the Court will not
dismiss the suit or decertify the class based on a lack
of concrete injury.
II. Class notice
Separately, Dish moves for decertification of the
class based on the results of the class notice process.
Dish contends that, because Dr. Krakauer has been
unable to locate some of the class members, the
classes are not ascertainable. (Doc. 197 at 14).
Dish cites no cases where a class was decertified
based on a failure to contact a certain threshold
percentage of class members. Instead, Dish cites two
cases where a court determined that locating class
members had become unmanageable.

80a
In Thomas v. Baca, the district court decertified a
class when it became clear that the class of inmates
in the Los Angeles County jails was “unmanageable”
because of the existence of highly individualized
questions with no feasible way to identify or notify
class members. No. CV 04-08448, 2012 WL 994090, at
*3 (C.D. Cal. Mar. 22, 2012). In Pierce v. County of
Orange, the Ninth Circuit affirmed the decertification
of a class of Orange County jail pre-trial detainees
because of “expected difficulties identifying class
members and determining appropriate damages,”
given that the only records of detainees were
“incomplete.” 526 F.3d 1190, 1200 (9th Cir. 2008).
Neither of these cases supports decertification.
Dr.
Krakauer
has
successfully
contacted
approximately seventy-five percent of the class
members, (Doc. 206-1 at ¶ 12), which exceeds the
representations he made when seeking approval of
the class notice plan. (See Doc. 153 at 2 (proposing a
plan to reach “at least … seventy percent” of the
class)). By itself, this level of notice does not make the
process of notice or classwide resolution of claims
unmanageable.
It is ORDERED that the defendant Dish
Network L.L.C.’s motion to dismiss or in the
alternative to decertify the classes, (Doc. 196), is
DENIED.
This the 5th day of August, 2016.
/s/ Catherine C. Eagles
UNITED STATES
DISTRICT JUDGE

81a
APPENDIX D
United States Code
Title 47. Telecommunications
47 U.S.C. § 227
§ 227. Restrictions on use of telephone
equipment
(a) Definitions
As used in this section—
(1) The term “automatic telephone dialing system”
means equipment which has the capacity—
(A) to store or produce telephone numbers to be
called, using a random or sequential number
generator; and
(B) to dial such numbers.
(2) The term “established business relationship”, for
purposes only of subsection (b)(1)(C)(i), shall have
the meaning given the term in section 64.1200 of
title 47, Code of Federal Regulations, as in effect on
January 1, 2003, except that—
(A) such term shall include a relationship between
a person or entity and a business subscriber
subject to the same terms applicable under such
section to a relationship between a person or entity
and a residential subscriber; and

82a
(B) an established business relationship shall be
subject to any time limitation established
pursuant to paragraph (2)(G)). 1
(3) The term “telephone facsimile machine” means
equipment which has the capacity (A) to transcribe
text or images, or both, from paper into an electronic
signal and to transmit that signal over a regular
telephone line, or (B) to transcribe text or images (or
both) from an electronic signal received over a
regular telephone line onto paper.
(4) The term “telephone solicitation” means the
initiation of a telephone call or message for the
purpose of encouraging the purchase or rental of, or
investment in, property, goods, or services, which is
transmitted to any person, but such term does not
include a call or message (A) to any person with that
person’s prior express invitation or permission, (B)
to any person with whom the caller has an
established business relationship, or (C) by a tax
exempt nonprofit organization.
(5) The term “unsolicited advertisement” means any
material advertising the commercial availability or
quality of any property, goods, or services which is
transmitted to any person without that person’s
prior express invitation or permission, in writing or
otherwise.
(b) Restrictions on use of automated telephone
equipment

So in original. The second closing parenthesis probably should
not appear.
1

83a
(1) Prohibitions
It shall be unlawful for any person within the
United States, or any person outside the United
States if the recipient is within the United States—
(A) to make any call (other than a call made for
emergency purposes or made with the prior
express consent of the called party) using any
automatic telephone dialing system or an artificial
or prerecorded voice—
(i) to any emergency telephone line (including
any “911” line and any emergency line of a
hospital, medical physician or service office,
health care facility, poison control center, or fire
protection or law enforcement agency);
(ii) to the telephone line of any guest room or
patient room of a hospital, health care facility,
elderly home, or similar establishment; or
(iii) to any telephone number assigned to a
paging service, cellular telephone service,
specialized mobile radio service, or other radio
common carrier service, or any service for which
the called party is charged for the call, unless
such call is made solely to collect a debt owed to
or guaranteed by the United States;
(B) to initiate any telephone call to any residential
telephone line using an artificial or prerecorded
voice to deliver a message without the prior
express consent of the called party, unless the call
is initiated for emergency purposes, is made solely
pursuant to the collection of a debt owed to or
guaranteed by the United States, or is exempted

84a
by rule or order by the Commission under
paragraph (2)(B);
(C) to use any telephone facsimile machine,
computer, or other device to send, to a telephone
facsimile machine, an unsolicited advertisement,
unless—
(i) the unsolicited advertisement is from a sender
with an established business relationship with
the recipient;
(ii) the sender obtained the number of the
telephone facsimile machine through—
(I) the voluntary communication of such
number, within the context of such established
business relationship, from the recipient of the
unsolicited advertisement, or
(II) a directory, advertisement, or site on the
Internet to which the recipient voluntarily
agreed to make available its facsimile number
for public distribution,
except that this clause shall not apply in the
case of an unsolicited advertisement that is
sent based on an established business
relationship with the recipient that was in
existence before July 9, 2005, if the sender
possessed the facsimile machine number of the
recipient before July 9, 2005; and
(iii) the unsolicited advertisement contains a
notice meeting the requirements under
paragraph (2)(D),

85a
except that the exception under clauses (i) and (ii)
shall not apply with respect to an unsolicited
advertisement sent to a telephone facsimile
machine by a sender to whom a request has been
made
not
to
send
future
unsolicited
advertisements to such telephone facsimile
machine that complies with the requirements
under paragraph (2)(E); or
(D) to use an automatic telephone dialing system
in such a way that two or more telephone lines of
a multi-line business are engaged simultaneously.
(2) Regulations; exemptions and other provisions
The Commission shall prescribe regulations to
implement the requirements of this subsection. In
implementing the requirements of this subsection,
the Commission—
(A) shall consider prescribing regulations to allow
businesses to avoid receiving calls made using an
artificial or prerecorded voice to which they have
not given their prior express consent;
(B) may, by rule or order, exempt from the
requirements of paragraph (1)(B) of this
subsection, subject to such conditions as the
Commission may prescribe—
(i) calls that are not made for a commercial
purpose; and
(ii) such classes or categories of calls made for
commercial purposes as the Commission
determines—

86a
(I) will not adversely affect the privacy rights
that this section is intended to protect; and
(II) do not include the transmission of any
unsolicited advertisement;
(C) may, by rule or order, exempt from the
requirements of paragraph (1)(A)(iii) of this
subsection calls to a telephone number assigned to
a cellular telephone service that are not charged to
the called party, subject to such conditions as the
Commission may prescribe as necessary in the
interest of the privacy rights this section is
intended to protect;
(D) shall provide that a notice contained in an
unsolicited advertisement complies with the
requirements under this subparagraph only if—
(i) the notice is clear and conspicuous and on the
first page of the unsolicited advertisement;
(ii) the notice states that the recipient may make
a request to the sender of the unsolicited
advertisement not to send any future unsolicited
advertisements to a telephone facsimile machine
or machines and that failure to comply, within
the shortest reasonable time, as determined by
the Commission, with such a request meeting
the requirements under subparagraph (E) is
unlawful;
(iii) the notice sets forth the requirements for a
request under subparagraph (E);
(iv) the notice includes—

87a
(I) a domestic contact telephone and facsimile
machine number for the recipient to transmit
such a request to the sender; and
(II) a cost-free mechanism for a recipient to
transmit a request pursuant to such notice to
the sender of the unsolicited advertisement;
the Commission shall by rule require the
sender to provide such a mechanism and may,
in the discretion of the Commission and subject
to such conditions as the Commission may
prescribe, exempt certain classes of small
business senders, but only if the Commission
determines that the costs to such class are
unduly burdensome given the revenues
generated by such small businesses;
(v) the telephone and facsimile machine numbers
and the cost-free mechanism set forth pursuant
to clause (iv) permit an individual or business to
make such a request at any time on any day of
the week; and
(vi) the notice complies with the requirements of
subsection (d);
(E) shall provide, by rule, that a request not to
send future unsolicited advertisements to a
telephone facsimile machine complies with the
requirements under this subparagraph only if—
(i) the request identifies the telephone number or
numbers of the telephone facsimile machine or
machines to which the request relates;
(ii) the request is made to the telephone or
facsimile number of the sender of such an

88a
unsolicited advertisement provided pursuant to
subparagraph (D)(iv) or by any other method of
communication
as
determined
by
the
Commission; and
(iii) the person making the request has not,
subsequent to such request, provided express
invitation or permission to the sender, in writing
or otherwise, to send such advertisements to
such person at such telephone facsimile
machine;
(F) may, in the discretion of the Commission and
subject to such conditions as the Commission may
prescribe, allow professional or trade associations
that are tax-exempt nonprofit organizations to
send unsolicited advertisements to their members
in furtherance of the association’s tax-exempt
purpose that do not contain the notice required by
paragraph (1)(C)(iii), except that the Commission
may take action under this subparagraph only—
(i) by regulation issued after public notice and
opportunity for public comment; and
(ii) if the Commission determines that such
notice required by paragraph (1)(C)(iii) is not
necessary to protect the ability of the members
of such associations to stop such associations
from
sending
any
future
unsolicited
advertisements;
(G)(i) may, consistent with clause (ii), limit the
duration of the existence of an established
business
relationship,
however,
before
establishing any such limits, the Commission
shall—

89a
(I) determine whether the existence of the
exception under paragraph (1)(C) relating to an
established business relationship has resulted
in a significant number of complaints to the
Commission regarding the sending of
unsolicited advertisements to telephone
facsimile machines;
(II) determine whether a significant number of
any such complaints involve unsolicited
advertisements that were sent on the basis of
an established business relationship that was
longer in duration than the Commission
believes is consistent with the reasonable
expectations of consumers;
(III) evaluate the costs to senders of
demonstrating the existence of an established
business relationship within a specified period
of time and the benefits to recipients of
establishing a limitation on such established
business relationship; and
(IV) determine whether with respect to small
businesses, the costs would not be unduly
burdensome; and
(ii) may not commence a proceeding to determine
whether to limit the duration of the existence of
an established business relationship before the
expiration of the 3-month period that begins on
July 9, 2005; and
(H) may restrict or limit the number and duration
of calls made to a telephone number assigned to a
cellular telephone service to collect a debt owed to
or guaranteed by the United States.

90a
(3) Private right of action
A person or entity may, if otherwise permitted by
the laws or rules of court of a State, bring in an
appropriate court of that State—
(A) an action based on a violation of this subsection
or the regulations prescribed under this
subsection to enjoin such violation,
(B) an action to recover for actual monetary loss
from such a violation, or to receive $500 in
damages for each such violation, whichever is
greater, or
(C) both such actions.
If the court finds that the defendant willfully or
knowingly violated this subsection or the
regulations prescribed under this subsection, the
court may, in its discretion, increase the amount
of the award to an amount equal to not more than
3 times the amount available under subparagraph
(B) of this paragraph.
(c) Protection of subscriber privacy rights
(1) Rulemaking proceeding required
Within 120 days after December 20, 1991, the
Commission shall initiate a rulemaking proceeding
concerning the need to protect residential telephone
subscribers’ privacy rights to avoid receiving
telephone solicitations to which they object. The
proceeding shall—

91a
(A) compare and evaluate alternative methods and
procedures (including the use of electronic
databases, telephone network technologies,
special directory markings, industry-based or
company-specific “do not call” systems, and any
other alternatives, individually or in combination)
for their effectiveness in protecting such privacy
rights, and in terms of their cost and other
advantages and disadvantages;
(B) evaluate the categories of public and private
entities that would have the capacity to establish
and administer such methods and procedures;
(C) consider whether different methods and
procedures may apply for local telephone
solicitations, such as local telephone solicitations
of small businesses or holders of second class mail
permits;
(D) consider whether there is a need for additional
Commission authority to further restrict
telephone solicitations, including those calls
exempted under subsection (a)(3) of this section,
and, if such a finding is made and supported by the
record, propose specific restrictions to the
Congress; and
(E) develop proposed regulations to implement the
methods and procedures that the Commission
determines are most effective and efficient to
accomplish the purposes of this section.
(2) Regulations
Not later than 9 months after December 20, 1991,
the Commission shall conclude the rulemaking

92a
proceeding initiated under paragraph (1) and shall
prescribe regulations to implement methods and
procedures for protecting the privacy rights
described in such paragraph in an efficient,
effective, and economic manner and without the
imposition of any additional charge to telephone
subscribers.
(3) Use of database permitted
The regulations required by paragraph (2) may
require the establishment and operation of a single
national database to compile a list of telephone
numbers of residential subscribers who object to
receiving telephone solicitations, and to make that
compiled list and parts thereof available for
purchase. If the Commission determines to require
such a database, such regulations shall—
(A) specify a method by which the Commission will
select an entity to administer such database;
(B) require each common carrier providing
telephone exchange service, in accordance with
regulations prescribed by the Commission, to
inform subscribers for telephone exchange service
of the opportunity to provide notification, in
accordance with regulations established under
this paragraph, that such subscriber objects to
receiving telephone solicitations;
(C) specify the methods by which each telephone
subscriber shall be informed, by the common
carrier that provides local exchange service to that
subscriber, of (i) the subscriber’s right to give or
revoke a notification of an objection under

93a
subparagraph (A), and (ii) the methods by which
such right may be exercised by the subscriber;
(D) specify the methods by which such objections
shall be collected and added to the database;
(E) prohibit any residential subscriber from being
charged for giving or revoking such notification or
for being included in a database compiled under
this section;
(F) prohibit any person from making or
transmitting a telephone solicitation to the
telephone number of any subscriber included in
such database;
(G) specify (i) the methods by which any person
desiring to make or transmit telephone
solicitations will obtain access to the database, by
area code or local exchange prefix, as required to
avoid calling the telephone numbers of subscribers
included in such database; and (ii) the costs to be
recovered from such persons;
(H) specify the methods for recovering, from
persons accessing such database, the costs
involved in identifying, collecting, updating,
disseminating, and selling, and other activities
relating to, the operations of the database that are
incurred by the entities carrying out those
activities;
(I) specify the frequency with which such database
will be updated and specify the method by which
such updating will take effect for purposes of
compliance with the regulations prescribed under
this subsection;

94a
(J) be designed to enable States to use the
database mechanism selected by the Commission
for purposes of administering or enforcing State
law;
(K) prohibit the use of such database for any
purpose other than compliance with the
requirements of this section and any such State
law and specify methods for protection of the
privacy rights of persons whose numbers are
included in such database; and
(L) require each common carrier providing
services to any person for the purpose of making
telephone solicitations to notify such person of the
requirements of this section and the regulations
thereunder.
(4) Considerations required for use of database
method
If the Commission determines to require the
database mechanism described in paragraph (3), the
Commission shall—
(A) in developing procedures for gaining access to
the database, consider the different needs of
telemarketers conducting business on a national,
regional, State, or local level;
(B) develop a fee schedule or price structure for
recouping the cost of such database that
recognizes such differences and—
(i) reflect the relative costs of providing a
national, regional, State, or local list of phone

95a
numbers of subscribers who object to receiving
telephone solicitations;
(ii) reflect the relative costs of providing such
lists on paper or electronic media; and
(iii) not place an unreasonable financial burden
on small businesses; and
(C) consider (i) whether the needs of telemarketers
operating on a local basis could be met through
special markings of area white pages directories,
and (ii) if such directories are needed as an adjunct
to database lists prepared by area code and local
exchange prefix.
(5) Private right of action
A person who has received more than one telephone
call within any 12-month period by or on behalf of
the same entity in violation of the regulations
prescribed under this subsection may, if otherwise
permitted by the laws or rules of court of a State
bring in an appropriate court of that State—
(A) an action based on a violation of the
regulations prescribed under this subsection to
enjoin such violation,
(B) an action to recover for actual monetary loss
from such a violation, or to receive up to $500 in
damages for each such violation, whichever is
greater, or
(C) both such actions.

96a
It shall be an affirmative defense in any action
brought under this paragraph that the defendant
has established and implemented, with due care,
reasonable practices and procedures to effectively
prevent telephone solicitations in violation of the
regulations prescribed under this subsection. If
the court finds that the defendant willfully or
knowingly violated the regulations prescribed
under this subsection, the court may, in its
discretion, increase the amount of the award to an
amount equal to not more than 3 times the amount
available under subparagraph (B) of this
paragraph.
(6) Relation to subsection (b)
The provisions of this subsection shall not be
construed to permit a communication prohibited by
subsection (b).
(d) Technical and procedural standards
(1) Prohibition
It shall be unlawful for any person within the
United States—
(A) to initiate any communication using a
telephone facsimile machine, or to make any
telephone call using any automatic telephone
dialing system, that does not comply with the
technical and procedural standards prescribed
under this subsection, or to use any telephone
facsimile machine or automatic telephone dialing
system in a manner that does not comply with
such standards; or

97a
(B) to use a computer or other electronic device to
send any message via a telephone facsimile
machine unless such person clearly marks, in a
margin at the top or bottom of each transmitted
page of the message or on the first page of the
transmission, the date and time it is sent and an
identification of the business, other entity, or
individual sending the message and the telephone
number of the sending machine or of such
business, other entity, or individual.
(2) Telephone facsimile machines
The Commission shall revise the regulations setting
technical and procedural standards for telephone
facsimile machines to require that any such
machine which is manufactured after one year after
December 20, 1991, clearly marks, in a margin at
the top or bottom of each transmitted page or on the
first page of each transmission, the date and time
sent, an identification of the business, other entity,
or individual sending the message, and the
telephone number of the sending machine or of such
business, other entity, or individual.
(3) Artificial or prerecorded voice systems
The Commission shall prescribe technical and
procedural standards for systems that are used to
transmit any artificial or prerecorded voice message
via telephone. Such standards shall require that—
(A) all artificial or prerecorded telephone
messages (i) shall, at the beginning of the
message, state clearly the identity of the business,
individual, or other entity initiating the call, and
(ii) shall, during or after the message, state clearly

98a
the telephone number or address of such business,
other entity, or individual; and
(B) any such system will automatically release the
called party’s line within 5 seconds of the time
notification is transmitted to the system that the
called party has hung up, to allow the called
party’s line to be used to make or receive other
calls.
(e) Prohibition on provision of inaccurate caller
identification information
(1) In general
It shall be unlawful for any person within the
United
States,
in
connection
with
any
telecommunications service or IP-enabled voice
service, to cause any caller identification service to
knowingly transmit misleading or inaccurate caller
identification information with the intent to
defraud, cause harm, or wrongfully obtain anything
of value, unless such transmission is exempted
pursuant to paragraph (3)(B).
(2) Protection for blocking caller identification
information
Nothing in this subsection may be construed to
prevent or restrict any person from blocking the
capability of any caller identification service to
transmit caller identification information.
(3) Regulations
(A) In general

99a
Not later than 6 months after December 22, 2010,
the Commission shall prescribe regulations to
implement this subsection.
(B) Content of regulations
(i) In general
The regulations required under subparagraph
(A) shall include such exemptions from the
prohibition under paragraph (1) as the
Commission determines is appropriate.
(ii) Specific exemption for law enforcement
agencies or court orders
The regulations required under subparagraph
(A) shall exempt from the prohibition under
paragraph (1) transmissions in connection
with—
(I) any authorized activity of a law enforcement
agency; or
(II) a court order that specifically authorizes
the use of caller identification manipulation.
(4) Repealed. Pub.L. 115-141, Div. P, Title IV, §
402(i)(3), Mar. 23, 2018, 132 Stat. 1089
(5) Penalties
(A) Civil forfeiture
(i) In general
Any person that is determined by the
Commission, in accordance with paragraphs (3)

100a
and (4) of section 503(b) of this title, to have
violated this subsection shall be liable to the
United States for a forfeiture penalty. A
forfeiture penalty under this paragraph shall be
in addition to any other penalty provided for by
this chapter. The amount of the forfeiture
penalty determined under this paragraph shall
not exceed $10,000 for each violation, or 3 times
that amount for each day of a continuing
violation, except that the amount assessed for
any continuing violation shall not exceed a total
of $1,000,000 for any single act or failure to act.
(ii) Recovery
Any forfeiture penalty determined under clause
(i) shall be recoverable pursuant to section 504(a)
of this title.
(iii) Procedure
No forfeiture liability shall be determined under
clause (i) against any person unless such person
receives the notice required by section 503(b)(3)
of this title or section 503(b)(4) of this title.
(iv) 2-year statute of limitations
No forfeiture penalty shall be determined or
imposed against any person under clause (i) if
the violation charged occurred more than 2 years
prior to the date of issuance of the required
notice or notice or apparent liability.
(B) Criminal fine

101a
Any person who willfully and knowingly violates
this subsection shall upon conviction thereof be
fined not more than $10,000 for each violation, or
3 times that amount for each day of a continuing
violation, in lieu of the fine provided by section 501
of this title for such a violation. This subparagraph
does not supersede the provisions of section 501 of
this title relating to imprisonment or the
imposition of a penalty of both fine and
imprisonment.
(6) Enforcement by States
(A) In general
The chief legal officer of a State, or any other State
officer authorized by law to bring actions on behalf
of the residents of a State, may bring a civil action,
as parens patriae, on behalf of the residents of that
State in an appropriate district court of the United
States to enforce this subsection or to impose the
civil penalties for violation of this subsection,
whenever the chief legal officer or other State
officer has reason to believe that the interests of
the residents of the State have been or are being
threatened or adversely affected by a violation of
this subsection or a regulation under this
subsection.
(B) Notice
The chief legal officer or other State officer shall
serve written notice on the Commission of any civil
action under subparagraph (A) prior to initiating
such civil action. The notice shall include a copy of
the complaint to be filed to initiate such civil
action, except that if it is not feasible for the State

102a
to provide such prior notice, the State shall
provide such notice immediately upon instituting
such civil action.
(C) Authority to intervene
Upon receiving the notice required by
subparagraph (B), the Commission shall have the
right—
(i) to intervene in the action;
(ii) upon so intervening, to be heard on all
matters arising therein; and
(iii) to file petitions for appeal.
(D) Construction
For purposes of bringing any civil action under
subparagraph (A), nothing in this paragraph shall
prevent the chief legal officer or other State officer
from exercising the powers conferred on that
officer by the laws of such State to conduct
investigations or to administer oaths or
affirmations or to compel the attendance of
witnesses or the production of documentary and
other evidence.
(E) Venue; service or process
(i) Venue
An action brought under subparagraph (A) shall
be brought in a district court of the United States
that meets applicable requirements relating to
venue under section 1391 of Title 28.

103a
(ii) Service of process
In an action brought under subparagraph (A)—
(I) process may be served without regard to the
territorial limits of the district or of the State
in which the action is instituted; and
(II) a person who participated in an alleged
violation that is being litigated in the civil
action may be joined in the civil action without
regard to the residence of the person.
(7) Effect on other laws
This subsection does not prohibit any lawfully
authorized investigative, protective, or intelligence
activity of a law enforcement agency of the United
States, a State, or a political subdivision of a State,
or of an intelligence agency of the United States.
(8) Definitions
For purposes of this subsection:
(A) Caller identification information
The term “caller identification information” means
information provided by a caller identification
service regarding the telephone number of, or
other information regarding the origination of, a
call made using a telecommunications service or
IP-enabled voice service.
(B) Caller identification service
The term “caller identification service” means any
service or device designed to provide the user of

104a
the service or device with the telephone number of,
or other information regarding the origination of,
a call made using a telecommunications service or
IP-enabled voice service. Such term includes
automatic number identification services.
(C) IP-enabled voice service
The term “IP-enabled voice service” has the
meaning given that term by section 9.3 of the
Commission’s regulations (47 C.F.R. 9.3), as those
regulations may be amended by the Commission
from time to time.
(9) Limitation
Notwithstanding any other provision of this section,
subsection (f) shall not apply to this subsection or to
the regulations under this subsection.
(f) Effect on State law
(1) State law not preempted
Except for the standards prescribed under
subsection (d) and subject to paragraph (2) of this
subsection, nothing in this section or in the
regulations prescribed under this section shall
preempt any State law that imposes more
restrictive intrastate requirements or regulations
on, or which prohibits—
(A) the use of telephone facsimile machines or
other electronic devices to send unsolicited
advertisements;

105a
(B) the use of automatic telephone dialing
systems;
(C) the use of artificial or prerecorded voice
messages; or
(D) the making of telephone solicitations.
(2) State use of databases
If, pursuant to subsection (c)(3), the Commission
requires the establishment of a single national
database of telephone numbers of subscribers who
object to receiving telephone solicitations, a State or
local authority may not, in its regulation of
telephone solicitations, require the use of any
database, list, or listing system that does not include
the part of such single national database that
relates to such State.
(g) Actions by States
(1) Authority of States
Whenever the attorney general of a State, or an
official or agency designated by a State, has reason
to believe that any person has engaged or is
engaging in a pattern or practice of telephone calls
or other transmissions to residents of that State in
violation of this section or the regulations prescribed
under this section, the State may bring a civil action
on behalf of its residents to enjoin such calls, an
action to recover for actual monetary loss or receive
$500 in damages for each violation, or both such
actions. If the court finds the defendant willfully or
knowingly violated such regulations, the court may,
in its discretion, increase the amount of the award

106a
to an amount equal to not more than 3 times the
amount available under the preceding sentence.
(2) Exclusive jurisdiction of Federal courts
The district courts of the United States, the United
States courts of any territory, and the District Court
of the United States for the District of Columbia
shall have exclusive jurisdiction over all civil actions
brought under this subsection. Upon proper
application, such courts shall also have jurisdiction
to issue writs of mandamus, or orders affording like
relief, commanding the defendant to comply with
the provisions of this section or regulations
prescribed under this section, including the
requirement that the defendant take such action as
is necessary to remove the danger of such violation.
Upon a proper showing, a permanent or temporary
injunction or restraining order shall be granted
without bond.
(3) Rights of Commission
The State shall serve prior written notice of any
such civil action upon the Commission and provide
the Commission with a copy of its complaint, except
in any case where such prior notice is not feasible,
in which case the State shall serve such notice
immediately upon instituting such action. The
Commission shall have the right (A) to intervene in
the action, (B) upon so intervening, to be heard on
all matters arising therein, and (C) to file petitions
for appeal.
(4) Venue; service of process

107a
Any civil action brought under this subsection in a
district court of the United States may be brought
in the district wherein the defendant is found or is
an inhabitant or transacts business or wherein the
violation occurred or is occurring, and process in
such cases may be served in any district in which
the defendant is an inhabitant or where the
defendant may be found.
(5) Investigatory powers
For purposes of bringing any civil action under this
subsection, nothing in this section shall prevent the
attorney general of a State, or an official or agency
designated by a State, from exercising the powers
conferred on the attorney general or such official by
the laws of such State to conduct investigations or
to administer oaths or affirmations or to compel the
attendance of witnesses or the production of
documentary and other evidence.
(6) Effect on State court proceedings
Nothing contained in this subsection shall be
construed to prohibit an authorized State official
from proceeding in State court on the basis of an
alleged violation of any general civil or criminal
statute of such State.
(7) Limitation
Whenever the Commission has instituted a civil
action for violation of regulations prescribed under
this section, no State may, during the pendency of
such action instituted by the Commission,
subsequently institute a civil action against any
defendant named in the Commission’s complaint for

108a
any violation as alleged in the Commission’s
complaint.
(8) “Attorney general” defined
As used in this subsection, the term “attorney
general” means the chief legal officer of a State.
(h) Junk fax enforcement report
The Commission shall submit an annual report to
Congress regarding the enforcement during the past
year of the provisions of this section relating to
sending of unsolicited advertisements to telephone
facsimile machines, which report shall include—
(1) the number of complaints received by the
Commission during such year alleging that a
consumer received an unsolicited advertisement via
telephone facsimile machine in violation of the
Commission’s rules;
(2) the number of citations issued by the
Commission pursuant to section 503 of this title
during the year to enforce any law, regulation, or
policy relating to sending of unsolicited
advertisements to telephone facsimile machines;
(3) the number of notices of apparent liability issued
by the Commission pursuant to section 503 of this
title during the year to enforce any law, regulation,
or policy relating to sending of unsolicited
advertisements to telephone facsimile machines;
(4) for each notice referred to in paragraph (3)—

109a
(A) the amount of the proposed forfeiture penalty
involved;
(B) the person to whom the notice was issued;
(C) the length of time between the date on which
the complaint was filed and the date on which the
notice was issued; and
(D) the status of the proceeding;
(5) the number of final orders imposing forfeiture
penalties issued pursuant to section 503 of this title
during the year to enforce any law, regulation, or
policy relating to sending of unsolicited
advertisements to telephone facsimile machines;
(6) for each forfeiture order referred to in paragraph
(5)—
(A) the amount of the penalty imposed by the
order;
(B) the person to whom the order was issued;
(C) whether the forfeiture penalty has been paid;
and
(D) the amount paid;
(7) for each case in which a person has failed to pay
a forfeiture penalty imposed by such a final order,
whether the Commission referred such matter for
recovery of the penalty; and
(8) for each case in which the Commission referred
such an order for recovery—

110a
(A) the number of days from the date the
Commission issued such order to the date of such
referral;
(B) whether an action has been commenced to
recover the penalty, and if so, the number of days
from the date the Commission referred such order
for recovery to the date of such commencement;
and
(C) whether the recovery action resulted in
collection of any amount, and if so, the amount
collected.

111a
APPENDIX E
Code of Federal Regulations
Title 47. Telecommunication
47 C.F.R. § 64.1200
§ 64.1200. Delivery restrictions
(a) No person or entity may:
(1) Except as provided in paragraph (a)(2) of this
section, initiate any telephone call (other than a call
made for emergency purposes or is made with the
prior express consent of the called party) using an
automatic telephone dialing system or an artificial
or prerecorded voice;
(i) To any emergency telephone line, including any
911 line and any emergency line of a hospital,
medical physician or service office, health care
facility, poison control center, or fire protection or
law enforcement agency;
(ii) To the telephone line of any guest room or
patient room of a hospital, health care facility,
elderly home, or similar establishment; or
(iii) To any telephone number assigned to a paging
service, cellular telephone service, specialized
mobile radio service, or other radio common
carrier service, or any service for which the called
party is charged for the call.
(iv) A person will not be liable for violating the
prohibition in paragraph (a)(1)(iii) of this section
when the call is placed to a wireless number that

112a
has been ported from wireline service and such call
is a voice call; not knowingly made to a wireless
number; and made within 15 days of the porting of
the number from wireline to wireless service,
provided the number is not already on the national
do-not-call registry or caller’s company-specific donot-call list.
(2) Initiate, or cause to be initiated, any telephone
call that includes or introduces an advertisement or
constitutes telemarketing, using an automatic
telephone dialing system or an artificial or
prerecorded voice, to any of the lines or telephone
numbers described in paragraphs (a)(1)(i) through
(iii) of this section, other than a call made with the
prior express written consent of the called party or
the prior express consent of the called party when
the call is made by or on behalf of a tax-exempt
nonprofit organization, or a call that delivers a
“health care” message made by, or on behalf of, a
“covered entity” or its “business associate,” as those
terms are defined in the HIPAA Privacy Rule, 45
CFR 160.103.
(3) Initiate any telephone call to any residential line
using an artificial or prerecorded voice to deliver a
message without the prior express written consent
of the called party, unless the call;
(i) Is made for emergency purposes;
(ii) Is not made for a commercial purpose;
(iii) Is made for a commercial purpose but does not
include or introduce an advertisement or
constitute telemarketing;

113a
(iv) Is made by or on behalf of a tax-exempt
nonprofit organization; or
(v) Delivers a “health care” message made by, or
on behalf of, a “covered entity” or its “business
associate,” as those terms are defined in the
HIPAA Privacy Rule, 45 CFR 160.103.
(4) Use a telephone facsimile machine, computer, or
other device to send an unsolicited advertisement to
a telephone facsimile machine, unless—
(i) The unsolicited advertisement is from a sender
with an established business relationship, as
defined in paragraph (f)(6) of this section, with the
recipient; and
(ii) The sender obtained the number of the
telephone facsimile machine through—
(A) The voluntary communication of such
number by the recipient directly to the sender,
within the context of such established business
relationship; or
(B) A directory, advertisement, or site on the
Internet to which the recipient voluntarily
agreed to make available its facsimile number
for public distribution. If a sender obtains the
facsimile number from the recipient’s own
directory, advertisement, or Internet site, it will
be presumed that the number was voluntarily
made available for public distribution, unless
such materials explicitly note that unsolicited
advertisements are not accepted at the specified
facsimile number. If a sender obtains the
facsimile number from other sources, the sender

114a
must take reasonable steps to verify that the
recipient agreed to make the number available
for public distribution.
(C) This clause shall not apply in the case of an
unsolicited advertisement that is sent based on
an established business relationship with the
recipient that was in existence before July 9,
2005 if the sender also possessed the facsimile
machine number of the recipient before July 9,
2005. There shall be a rebuttable presumption
that if a valid established business relationship
was formed prior to July 9, 2005, the sender
possessed the facsimile number prior to such
date as well; and
(iii) The advertisement contains a notice that
informs the recipient of the ability and means to
avoid future unsolicited advertisements. A notice
contained in an advertisement complies with the
requirements under this paragraph only if—
(A) The notice is clear and conspicuous and on
the first page of the advertisement;
(B) The notice states that the recipient may
make a request to the sender of the
advertisement not to send any future
advertisements to a telephone facsimile machine
or machines and that failure to comply, within
30 days, with such a request meeting the
requirements under paragraph (a)(4)(v) of this
section is unlawful;
(C) The notice sets forth the requirements for an
opt-out request under paragraph (a)(4)(v) of this
section;

115a
(D) The notice includes—
(1) A domestic contact telephone number and
facsimile machine number for the recipient to
transmit such a request to the sender; and
(2) If neither the required telephone number
nor facsimile machine number is a toll-free
number, a separate cost-free mechanism
including a Web site address or email address,
for a recipient to transmit a request pursuant
to such notice to the sender of the
advertisement. A local telephone number also
shall constitute a cost-free mechanism so long
as recipients are local and will not incur any
long distance or other separate charges for calls
made to such number; and
(E) The telephone and facsimile numbers and
cost-free mechanism identified in the notice
must permit an individual or business to make
an opt-out request 24 hours a day, 7 days a week.
(iv) A request not to send future unsolicited
advertisements to a telephone facsimile machine
complies with the requirements under this
subparagraph only if—
(A) The request identifies the telephone number
or numbers of the telephone facsimile machine or
machines to which the request relates;
(B) The request is made to the telephone
number, facsimile number, Web site address or
email address identified in the sender’s facsimile
advertisement; and

116a
(C) The person making the request has not,
subsequent to such request, provided express
invitation or permission to the sender, in writing
or otherwise, to send such advertisements to
such person at such telephone facsimile
machine.
(v) A sender that receives a request not to send
future unsolicited advertisements that complies
with paragraph (a)(4)(v) of this section must honor
that request within the shortest reasonable time
from the date of such request, not to exceed 30
days, and is prohibited from sending unsolicited
advertisements to the recipient unless the
recipient subsequently provides prior express
invitation or permission to the sender. The
recipient’s opt-out request terminates the
established business relationship exemption for
purposes
of
sending
future
unsolicited
advertisements. If such requests are recorded or
maintained by a party other than the sender on
whose behalf the unsolicited advertisement is
sent, the sender will be liable for any failures to
honor the opt-out request.
(vi) A facsimile broadcaster will be liable for
violations of paragraph (a)(4) of this section,
including the inclusion of opt-out notices on
unsolicited advertisements, if it demonstrates a
high degree of involvement in, or actual notice of,
the unlawful activity and fails to take steps to
prevent such facsimile transmissions.
(5) Use an automatic telephone dialing system in
such a way that two or more telephone lines of a
multi-line business are engaged simultaneously.

117a
(6) Disconnect an unanswered telemarketing call
prior to at least 15 seconds or four (4) rings.
(7) Abandon more than three percent of all
telemarketing calls that are answered live by a
person, as measured over a 30-day period for a
single calling campaign. If a single calling campaign
exceeds a 30-day period, the abandonment rate shall
be calculated separately for each successive 30-day
period or portion thereof that such calling campaign
continues. A call is “abandoned” if it is not connected
to a live sales representative within two (2) seconds
of the called person’s completed greeting.
(i) Whenever a live sales representative is not
available to speak with the person answering the
call, within two (2) seconds after the called
person’s completed greeting, the telemarketer or
the seller must provide:
(A) A prerecorded identification and opt-out
message that is limited to disclosing that the call
was for “telemarketing purposes” and states the
name of the business, entity, or individual on
whose behalf the call was placed, and a
telephone number for such business, entity, or
individual that permits the called person to
make a do-not-call request during regular
business hours for the duration of the
telemarketing campaign; provided, that, such
telephone number may not be a 900 number or
any other number for which charges exceed local
or long distance transmission charges, and
(B) An automated, interactive voice- and/or key
press-activated opt-out mechanism that enables
the called person to make a do-not-call request

118a
prior to terminating the call, including brief
explanatory instructions on how to use such
mechanism. When the called person elects to optout using such mechanism, the mechanism must
automatically record the called person’s number
to the seller’s do-not-call list and immediately
terminate the call.
(ii) A call for telemarketing purposes that delivers
an artificial or prerecorded voice message to a
residential telephone line or to any of the lines or
telephone numbers described in paragraphs
(a)(1)(i) through (iii) of this section after the
subscriber to such line has granted prior express
written consent for the call to be made shall not be
considered an abandoned call if the message
begins within two (2) seconds of the called person’s
completed greeting.
(iii) The seller or telemarketer must maintain
records establishing compliance with paragraph
(a)(7) of this section.
(iv) Calls made by or on behalf of tax-exempt
nonprofit organizations are not covered by this
paragraph (a)(7).
(8) Use any technology to dial any telephone number
for the purpose of determining whether the line is a
facsimile or voice line.
(b) All artificial or prerecorded voice telephone
messages shall:
(1) At the beginning of the message, state clearly the
identity of the business, individual, or other entity
that is responsible for initiating the call. If a

119a
business is responsible for initiating the call, the
name under which the entity is registered to
conduct business with the State Corporation
Commission (or comparable regulatory authority)
must be stated;
(2) During or after the message, state clearly the
telephone number (other than that of the autodialer
or prerecorded message player that placed the call)
of such business, other entity, or individual. The
telephone number provided may not be a 900
number or any other number for which charges
exceed local or long distance transmission charges.
For telemarketing messages to residential
telephone subscribers, such telephone number must
permit any individual to make a do-not-call request
during regular business hours for the duration of
the telemarketing campaign; and
(3) In every case where the artificial or prerecorded
voice telephone message includes or introduces an
advertisement or constitutes telemarketing and is
delivered to a residential telephone line or any of the
lines or telephone numbers described in paragraphs
(a)(1)(i) through (iii), provide an automated,
interactive voice- and/or key press-activated opt-out
mechanism for the called person to make a do-notcall
request,
including
brief
explanatory
instructions on how to use such mechanism, within
two (2) seconds of providing the identification
information required in paragraph (b)(1) of this
section. When the called person elects to opt out
using such mechanism, the mechanism, must
automatically record the called person’s number to
the seller’s do-not-call list and immediately
terminate the call. When the artificial or
prerecorded voice telephone message is left on an

120a
answering machine or a voice mail service, such
message must also provide a toll free number that
enables the called person to call back at a later time
and connect directly to the automated, interactive
voiceand/or
key
press-activated
opt-out
mechanism and automatically record the called
person’s number to the seller’s do-not-call list.
(c) No person or entity shall initiate any telephone
solicitation to:
(1) Any residential telephone subscriber before the
hour of 8 a.m. or after 9 p.m. (local time at the called
party’s location), or
(2) A residential telephone subscriber who has
registered his or her telephone number on the
national do-not-call registry of persons who do not
wish to receive telephone solicitations that is
maintained by the Federal Government. Such donot-call registrations must be honored indefinitely,
or until the registration is cancelled by the
consumer or the telephone number is removed by
the database administrator. Any person or entity
making telephone solicitations (or on whose behalf
telephone solicitations are made) will not be liable
for violating this requirement if:
(i) It can demonstrate that the violation is the
result of error and that as part of its routine
business practice, it meets the following
standards:
(A) Written procedures. It has established and
implemented written procedures to comply with
the national do-not-call rules;

121a
(B) Training of personnel. It has trained its
personnel, and any entity assisting in its
compliance, in procedures established pursuant
to the national do-not-call rules;
(C) Recording. It has maintained and recorded a
list of telephone numbers that the seller may not
contact;
(D) Accessing the national do-not-call database.
It uses a process to prevent telephone
solicitations to any telephone number on any list
established pursuant to the do-not-call rules,
employing a version of the national do-not-call
registry obtained from the administrator of the
registry no more than 31 days prior to the date
any call is made, and maintains records
documenting this process.
Note to paragraph (c)(2)(i)(D): The requirement in
paragraph 64.1200(c)(2)(i)(D) for persons or entities
to employ a version of the national do-not-call registry
obtained from the administrator no more than 31
days prior to the date any call is made is effective
January 1, 2005. Until January 1, 2005, persons or
entities must continue to employ a version of the
registry obtained from the administrator of the
registry no more than three months prior to the date
any call is made.
(E) Purchasing the national do-not-call database.
It uses a process to ensure that it does not sell,
rent, lease, purchase or use the national do-notcall database, or any part thereof, for any
purpose except compliance with this section and
any such state or federal law to prevent
telephone solicitations to telephone numbers

122a
registered on the national database. It purchases
access to the relevant do-not-call data from the
administrator of the national database and does
not participate in any arrangement to share the
cost of accessing the national database, including
any arrangement with telemarketers who may
not divide the costs to access the national
database among various client sellers; or
(ii) It has obtained the subscriber’s prior express
invitation or permission. Such permission must be
evidenced by a signed, written agreement between
the consumer and seller which states that the
consumer agrees to be contacted by this seller and
includes the telephone number to which the calls
may be placed; or
(iii) The telemarketer making the call has a
personal relationship with the recipient of the call.
(d) No person or entity shall initiate any call for
telemarketing purposes to a residential telephone
subscriber unless such person or entity has instituted
procedures for maintaining a list of persons who
request not to receive telemarketing calls made by or
on behalf of that person or entity. The procedures
instituted must meet the following minimum
standards:
(1) Written policy. Persons or entities making calls
for telemarketing purposes must have a written
policy, available upon demand, for maintaining a
do-not-call list.
(2) Training of personnel engaged in telemarketing.
Personnel engaged in any aspect of telemarketing

123a
must be informed and trained in the existence and
use of the do-not-call list.
(3) Recording, disclosure of do-not-call requests. If a
person or entity making a call for telemarketing
purposes (or on whose behalf such a call is made)
receives a request from a residential telephone
subscriber not to receive calls from that person or
entity, the person or entity must record the request
and place the subscriber’s name, if provided, and
telephone number on the do-not-call list at the time
the request is made. Persons or entities making
calls for telemarketing purposes (or on whose behalf
such calls are made) must honor a residential
subscriber’s do-not-call request within a reasonable
time from the date such request is made. This period
may not exceed thirty days from the date of such
request. If such requests are recorded or maintained
by a party other than the person or entity on whose
behalf the telemarketing call is made, the person or
entity on whose behalf the telemarketing call is
made will be liable for any failures to honor the donot-call request. A person or entity making a call for
telemarketing purposes must obtain a consumer’s
prior express permission to share or forward the
consumer’s request not to be called to a party other
than the person or entity on whose behalf a
telemarketing call is made or an affiliated entity.
(4) Identification of sellers and telemarketers. A
person or entity making a call for telemarketing
purposes must provide the called party with the
name of the individual caller, the name of the person
or entity on whose behalf the call is being made, and
a telephone number or address at which the person
or entity may be contacted. The telephone number
provided may not be a 900 number or any other

124a
number for which charges exceed local or long
distance transmission charges.
(5) Affiliated persons or entities. In the absence of a
specific request by the subscriber to the contrary, a
residential subscriber’s do-not-call request shall
apply to the particular business entity making the
call (or on whose behalf a call is made), and will not
apply to affiliated entities unless the consumer
reasonably would expect them to be included given
the identification of the caller and the product being
advertised.
(6) Maintenance of do-not-call lists. A person or
entity making calls for telemarketing purposes
must maintain a record of a consumer’s request not
to receive further telemarketing calls. A do-not-call
request must be honored for 5 years from the time
the request is made.
(7) Tax-exempt nonprofit organizations are not
required to comply with 64.1200(d).
(e) The rules set forth in paragraph (c) and (d) of this
section are applicable to any person or entity making
telephone solicitations or telemarketing calls to
wireless telephone numbers to the extent described in
the Commission’s Report and Order, CG Docket No.
02-278, FCC 03-153, “Rules and Regulations
Implementing the Telephone Consumer Protection
Act of 1991.”
(f) As used in this section:
(1) The term advertisement means any material
advertising the commercial availability or quality of
any property, goods, or services.

125a
(2) The terms automatic telephone dialing system
and autodialer mean equipment which has the
capacity to store or produce telephone numbers to be
called using a random or sequential number
generator and to dial such numbers.
(3) The term clear and conspicuous means a notice
that would be apparent to the reasonable consumer,
separate and distinguishable from the advertising
copy or other disclosures. With respect to facsimiles
and for purposes of paragraph (a)(4)(iii)(A) of this
section, the notice must be placed at either the top
or bottom of the facsimile.
(4) The term emergency purposes means calls made
necessary in any situation affecting the health and
safety of consumers.
(5) The term established business relationship for
purposes of telephone solicitations means a prior or
existing relationship formed by a voluntary two-way
communication between a person or entity and a
residential subscriber with or without an exchange
of consideration, on the basis of the subscriber’s
purchase or transaction with the entity within the
eighteen (18) months immediately preceding the
date of the telephone call or on the basis of the
subscriber’s inquiry or application regarding
products or services offered by the entity within the
three months immediately preceding the date of the
call, which relationship has not been previously
terminated by either party.
(i) The subscriber’s seller-specific do-not-call
request, as set forth in paragraph (d)(3) of this
section, terminates an established business
relationship for purposes of telemarketing and

126a
telephone solicitation even if the subscriber
continues to do business with the seller.
(ii) The subscriber’s established business
relationship with a particular business entity does
not extend to affiliated entities unless the
subscriber would reasonably expect them to be
included given the nature and type of goods or
services offered by the affiliate and the identity of
the affiliate.
(6) The term established business relationship for
purposes of paragraph (a)(4) of this section on the
sending of facsimile advertisements means a prior
or existing relationship formed by a voluntary twoway communication between a person or entity and
a business or residential subscriber with or without
an exchange of consideration, on the basis of an
inquiry, application, purchase or transaction by the
business or residential subscriber regarding
products or services offered by such person or entity,
which relationship has not been previously
terminated by either party.
(7) The term facsimile broadcaster means a person
or entity that transmits messages to telephone
facsimile machines on behalf of another person or
entity for a fee.
(8) The term prior express written consent means an
agreement, in writing, bearing the signature of the
person called that clearly authorizes the seller to
deliver or cause to be delivered to the person called
advertisements or telemarketing messages using an
automatic telephone dialing system or an artificial
or prerecorded voice, and the telephone number to

127a
which the signatory authorizes such advertisements
or telemarketing messages to be delivered.
(i) The written agreement shall include a clear and
conspicuous disclosure informing the person
signing that:
(A) By executing the agreement, such person
authorizes the seller to deliver or cause to be
delivered to the signatory telemarketing calls
using an automatic telephone dialing system or
an artificial or prerecorded voice; and
(B) The person is not required to sign the
agreement (directly or indirectly), or agree to
enter into such an agreement as a condition of
purchasing any property, goods, or services.
(ii) The term “signature” shall include an
electronic or digital form of signature, to the extent
that such form of signature is recognized as a valid
signature under applicable federal law or state
contract law.
(9) The term seller means the person or entity on
whose behalf a telephone call or message is initiated
for the purpose of encouraging the purchase or
rental of, or investment in, property, goods, or
services, which is transmitted to any person.
(10) The term sender for purposes of paragraph
(a)(4) of this section means the person or entity on
whose behalf a facsimile unsolicited advertisement
is sent or whose goods or services are advertised or
promoted in the unsolicited advertisement.

128a
(11) The term telemarketer means the person or
entity that initiates a telephone call or message for
the purpose of encouraging the purchase or rental
of, or investment in, property, goods, or services,
which is transmitted to any person.
(12) The term telemarketing means the initiation of
a telephone call or message for the purpose of
encouraging the purchase or rental of, or investment
in, property, goods, or services, which is transmitted
to any person.
(13) The term telephone facsimile machine means
equipment which has the capacity to transcribe text
or images, or both, from paper into an electronic
signal and to transmit that signal over a regular
telephone line, or to transcribe text or images (or
both) from an electronic signal received over a
regular telephone line onto paper.
(14) The term telephone solicitation means the
initiation of a telephone call or message for the
purpose of encouraging the purchase or rental of, or
investment in, property, goods, or services, which is
transmitted to any person, but such term does not
include a call or message:
(i) To any person with that person’s prior express
invitation or permission;
(ii) To any person with whom the caller has an
established business relationship; or
(iii) By or on behalf of a tax-exempt nonprofit
organization.

129a
(15) The term unsolicited advertisement means any
material advertising the commercial availability or
quality of any property, goods, or services which is
transmitted to any person without that person’s
prior express invitation or permission, in writing or
otherwise.
(16) The term personal relationship means any
family member, friend, or acquaintance of the
telemarketer making the call.
(g) Beginning January 1, 2004, common carriers
shall:
(1) When providing local exchange service, provide
an annual notice, via an insert in the subscriber’s
bill, of the right to give or revoke a notification of an
objection to receiving telephone solicitations
pursuant to the national do-not-call database
maintained by the federal government and the
methods by which such rights may be exercised by
the subscriber. The notice must be clear and
conspicuous and include, at a minimum, the
Internet address and toll-free number that
residential telephone subscribers may use to
register on the national database.
(2) When providing service to any person or entity
for the purpose of making telephone solicitations,
make a one-time notification to such person or
entity of the national do-not-call requirements,
including, at a minimum, citation to 47 CFR 64.1200
and 16 CFR 310. Failure to receive such notification
will not serve as a defense to any person or entity
making telephone solicitations from violations of
this section.

130a
(h) The administrator of the national do-not-call
registry that is maintained by the federal government
shall make the telephone numbers in the database
available to the States so that a State may use the
telephone numbers that relate to such State as part
of any database, list or listing system maintained by
such State for the regulation of telephone
solicitations.
(i) [Reserved]
(j) [Reserved]
(k) Voice service providers may block calls so that they
do not reach a called party as follows:
(1) A provider may block a voice call when the
subscriber to which the originating number is
assigned has requested that calls purporting to
originate from that number be blocked because the
number is used for inbound calls only.
(2) A provider may block a voice call purporting to
originate from any of the following:
(i) A North American Numbering Plan number
that is not valid;
(ii) A valid North American Numbering Plan
number that is not allocated to a provider by the
North American Numbering Plan Administrator
or the Pooling Administrator; and
(iii) A valid North American Numbering Plan
number that is allocated to a provider by the North
American Numbering Plan Administrator or
Pooling Administrator, but is unused, so long as

131a
the provider blocking the calls is the allocatee of
the number and confirms that the number is
unused or has obtained verification from the
allocatee that the number is unused at the time of
the blocking.
(3) A provider may not block a voice call under
paragraph (k)(1) or (2) of this section if the call is an
emergency call placed to 911.
(4) For purposes of this subsection, a provider may
rely on Caller ID information to determine the
purported originating number without regard to
whether the call in fact originated from that
number.
(l) A reporting carrier subject to § 52.15(f) of this title
shall:
(1) Maintain records of the most recent date each
North American Numbering Plan (NANP)
telephone number allocated or ported to the
reporting carrier was permanently disconnected.
(2) Beginning on the 15th day of the month after the
Consumer and Governmental Affairs Bureau
announces that the Administrator is ready to begin
accepting these reports and on the 15th day of each
month thereafter, report to the Administrator the
most recent date each NANP telephone number
allocated to or ported to it was permanently
disconnected.
(3) For purposes of this paragraph (l), a NANP
telephone
number
has
been
permanently
disconnected when a subscriber permanently has
relinquished the number, or the provider

132a
permanently has reversed its assignment of the
number to the subscriber such that the number has
been disassociated with the subscriber. A NANP
telephone number that is ported to another provider
is not permanently disconnected.
(4) Reporting carriers serving 100,000 or fewer
domestic retail subscriber lines as reported on their
most recent Forms 477, aggregated over all the
providers’ affiliates, must begin keeping the records
required by paragraph (l)(1) of this section six
months after the effective date for large providers
and must begin filing the reports required by
paragraph (l)(2) of this section no later than the
15th day of the month that is six months after the
date
announced
by
the
Consumer
and
Governmental Affairs Bureau pursuant to
paragraph (l)(2).
(m) A person will not be liable for violating the
prohibitions in paragraph (a)(1), (2), or (3) of this
section by making a call to a number for which the
person previously had obtained prior express consent
of the called party as required in paragraph (a)(1), (2),
or (3) but at the time of the call, the number is not
assigned to the subscriber to whom it was assigned at
the time such prior express consent was obtained if
the person, bearing the burden of proof and
persuasion, demonstrates that:
(1) The person, based upon the most recent
numbering
information
reported
to
the
Administrator pursuant to paragraph (l) of this
section, by querying the database operated by the
Administrator and receiving a response of “no”, has
verified that the number has not been permanently
disconnected since the date prior express consent

133a
was obtained as required in paragraph (a)(1), (2), or
(3) of this section; and
(2) The person’s call to the number was the result of
the database erroneously returning a response of
“no” to the person’s query consisting of the number
for which prior express consent was obtained as
required in paragraph (a)(1), (2), or (3) of this section
and the date on which such prior express consent
was obtained.

